<html>
<title> - ADVANCING EFFECTIVE U.S. COMPETITION WITH CHINA: OBJECTIVES, PRIORITIES, AND NEXT STEPS</title>
<body><pre>[Senate Hearing 116-300]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 116-300
 
             ADVANCING EFFECTIVE U.S. COMPETITION WITH CHINA: 
                 OBJECTIVES, PRIORITIES, AND NEXT STEPS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 22, 2020

                               __________



       Printed for the use of the Committee on Foreign Relations
       
       

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                   Available via the World Wide Web:
                         http://www.govinfo.gov
                         
                         
                         
              U.S. GOVERNMENT PUBLISHING OFFICE 
42-191 PDF             WASHINGTON : 2020 
                          
                         
                         


                 COMMITTEE ON FOREIGN RELATIONS        

                JAMES E. RISCH, Idaho, Chairman        
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               BENJAMIN L. CARDIN, Maryland
CORY GARDNER, Colorado               JEANNE SHAHEEN, New Hampshire
MITT ROMNEY, Utah                    CHRISTOPHER A. COONS, Delaware
LINDSEY GRAHAM, South Carolina       TOM UDALL, New Mexico
JOHN BARRASSO, Wyoming               CHRISTOPHER MURPHY, Connecticut
ROB PORTMAN, Ohio                    TIM KAINE, Virginia
RAND PAUL, Kentucky                  EDWARD J. MARKEY, Massachusetts
TODD YOUNG, Indiana                  JEFF MERKLEY, Oregon
TED CRUZ, Texas                      CORY A. BOOKER, New Jersey
DAVID PERDUE, Georgia
              Christopher M. Socha, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Risch, Hon. James E., U.S. Senator From Idaho....................     1

    Prepared Statement...........................................     3

Menendez, Hon. Robert, U.S. Senator From New Jersey..............     5

Biegun, Hon. Stephen E., Deputy Secretary of State, U.S. 
  Department of State, Washington, DC............................     8
    Prepared Statement...........................................    11

              Additional Material Submitted for the Record

Responses of Deputy Secretary of State Stephen E. Biegun to 
  Questions Submitted by Senator Robert Menendez.................    55

Personal and Official Use Social Media Handbook--August 13, 2019.    63

Responses of Deputy Secretary of State Stephen E. Biegun to 
  Questions Submitted by Senator Ben Cardin......................    74

Responses of Deputy Secretary of State Stephen E. Biegun to 
  Questions Submitted by Senator Edward Markey...................    76

Responses of Deputy Secretary of State Stephen E. Biegun to 
  Questions Submitted by Senator Ted Cruz........................    77

                                 (iii)

  


                  ADVANCING EFFECTIVE U.S. COMPETITION 
           WITH CHINA: OBJECTIVES, PRIORITIES, AND NEXT STEPS

                              ----------                              


                       WEDNESDAY, JULY 22, 2020

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:04 p.m. in room 
SR-325, Russell Senate Office Building, Hon. James E. Risch, 
chairman of the committee, presiding.
    Present: Senators Risch [presiding], Johnson, Gardner, 
Romney, Barrasso, Portman, Young, Cruz, Perdue, Menendez, 
Cardin, Shaheen, Coons, Udall, Murphy, Kaine, Merkley, and 
Booker.

           OPENING STATEMENT OF HON. JAMES E. RISCH, 
                    U.S. SENATOR FROM IDAHO

    The Chairman. The committee will come to order.
    Thank you all for coming today, and I want to thank all of 
you for being here. It is our honor to have Deputy Secretary of 
State, Steve Biegun, here today to testify on U.S. policy 
regarding the People's Republic of China.
    I had originally planned to hold this hearing back in 
March. However, the need to focus on COVID-19 prevented us from 
doing that. Even as we continue to address the pandemic and its 
impact on U.S. citizens, it is important that this committee 
continue its work on the world's most pressing foreign policy 
challenges. Obviously, China is one of those.
    This is especially the case for the topic we are discussing 
today. As the Trump administration has correctly recognized, 
China is a strategic and global competitor of the United 
States. It will be the greatest foreign policy challenge the 
United States faces in the decades to come. The policies of the 
Chinese Communist Party undermine U.S. interests and values, 
including those we share with allies and partners around the 
world.
    COVID-19 has brought this challenge to the forefront of 
American life. We now know just how much the Chinese Communist 
Party's decisions and actions directly affect U.S. citizens, 
our allies and partners, and the entire world. And we know that 
not even a global pandemic will stop China's aggressive 
behavior, whether that is in Hong Kong, the South China Sea, or 
the Indian border.
    Over the last 3 years, the Trump administration has taken 
numerous steps to put the United States on a stronger path to 
competing with China. Last week I was glad to see long overdue 
sanctions on Chinese Communist Party officials for human rights 
abuses in Tibet and elsewhere.
    I was also pleased that we declared China's claims in the 
South China Sea as unlawful and deployed two carrier battle 
groups there for exercises. And after the Chinese Communist 
Party crushed Hong Kong's autonomy, the President made the 
tough but necessary decision to end certain types of special 
treatment for Hong Kong.
    In May, the Administration published a report on the 
implementation of its China strategy that goes into more 
detail.
    So this is a good time for this committee to conduct 
oversight regarding our objectives, what we have done, and 
where we go from here.
    This is also an opportunity to discuss China legislation 
put forward by members of this committee and others. This week, 
I introduced the Strengthening Trade, Regional Alliances, 
Technology, Economic and Geopolitical Initiatives concerning 
China, or the STRATEGIC Act. It is a comprehensive approach to 
China with concrete policies in several key areas of the 
competition. I will describe some of them briefly.
    We must continue our focus on China's anti-competitive 
economic policies. The Chinese Government engages in 
intellectual property theft and massive financing of Chinese 
companies and the most abusive anti-free market tactic of 
forced technology. This is a horrible practice, forced 
technology transfer. It is reprehensible. These policies are 
designed to push others out of the market and create 
monopolies. Innovative American companies like Micron 
Technologies based in my home state of Idaho know these 
challenges well. Their intellectual property was stolen by a 
Chinese company who then patented that technology in China and 
sued Micron.
    The STRATEGIC Act authorizes new tools for U.S. companies 
to address the harms caused by such policies, among several 
other provisions. To maintain our economic and technological 
edge, it is not enough to just push back on what China is 
doing.
    We also have to strengthen and invest in ourselves. In 
other committees, I have focused on this issue by supporting 
legislation promoting U.S. manufacturing of critical 
technologies, fortifying cybersecurity for our infrastructure 
and small businesses, and strengthening our technology 
workforce. The STRATEGIC Act focuses on increasing technology 
collaboration with allies and partners.
    America is the world hub for innovation, and we can boost 
that innovation further by working with our highly capable 
partners. If we do, we will all be in a better position to 
develop the technologies of the future and ensure they are used 
to uphold individual freedom, human rights, and prosperity.
    Finally, I want to stress the importance of deterrence. The 
United States, of course, does not seek any sort of military 
confrontation with China. However, China's military is getting 
bigger, more capable, and becoming more aggressive. In the 
Indo-Pacific region, we should all be a lot more worried about 
the Chinese Communist Party's plans for Taiwan, given what it 
just did to Hong Kong. In addition to the South China Sea, 
Japan faces almost daily incursions and pressure in the East 
China Sea. Beyond the region, China's Belt and Road Initiative 
is also helping the Chinese military expand its presence.
    We have to make it completely clear to the Chinese 
Communist Party that we are willing and able to defend our 
interests. That means we are affirming our commitments to our 
Indo-Pacific allies even as they need to take on a larger role 
in defending the interests we share. The STRATEGIC Act focuses 
on key steps for advancing defense cooperation with our allies, 
including advocating for several difficult but important policy 
changes.
    I want to stress that this bill that I have introduced does 
not--does not--seek to block China. Rather, what it does is it 
offers prosperity. It offers an invitation to join the 
international community and operate under the rule of law and 
under international norms. If that happens, we all will 
prosper. We should not miss the bipartisan opportunity that we 
have today to address these things.
    I will close with a note about bipartisanship. Time and 
time again on everything from human rights to investment 
screening, the Senate has worked across the aisle on China. 
Unfortunately, in recent months, that has become a lot harder. 
We have a long road ahead of us in this competition. We cannot 
allow partisanship to get in the way even in an election year. 
Whatever happens in November, China will remain an issue. If we 
do not work together, the United States as a whole will be 
weaker.
    I introduced this bill to push forward a serious and 
bipartisan conversation about the Senate's role in advancing an 
effective strategy of competition. I want to thank several of 
my colleagues on this committee from both sides of the aisle in 
joining me on that effort. There is both Republican and 
Democrat input into this bill not only from this committee, 
also from the think tanks around Washington, DC, including 
Democrat think tanks. And I hope this will be the start of more 
cooperation to come. When we get to a final bill, I am very 
hopeful that that bill will contain items that everyone has an 
interest in.
    There has been a number of people that have introduced 
bills. I know the ranking member is about to introduce a bill. 
I have no doubt that there will be things in there that we can 
all embrace, and I hope as we get to a final bill, we will have 
things that we can embrace on a bipartisan basis.
    With that, I will turn it over to the ranking member, 
Senator Menendez.
    [The prepared statement of Senator Risch follows:]

              Prepared Statement of Senator James E. Risch

    Thank you all for coming today. It is an honor to have Deputy 
Secretary of State Steve Biegun here today to testify on U.S. policy 
regarding the People's Republic of China. I had originally planned to 
hold this hearing back in March. However, the need to focus on COVID-19 
prevented us from doing that. Even as we continue to address the 
pandemic and its impact on U.S. citizens, it is important that this 
committee continue its work on the world's most pressing foreign policy 
challenges. Obviously, China is one of those.
    That is especially the case for the topic we are discussing today. 
As the Trump administration has correctly recognized, China is a 
strategic and global competitor of the United States. It will be the 
greatest foreign policy challenge the United States faces in the 
decades to come. The policies of the Chinese Communist Party (CCP) 
undermine U.S. interests and values, including those we share with 
allies and partners around the world.
    COVID-19 has brought this challenge to the forefront of American 
life. We now know just how much the CCP's decisions and actions 
directly affect U.S. citizens, our allies and partners, and the entire 
world. And we know not even a global pandemic will stop China's 
aggressive behavior--whether that's in Hong Kong, the South China Sea, 
or along the Indian border.
    Over the last 3 years, the Trump administration has taken numerous 
steps to put the United States on a stronger path to competing with 
China. Last week I was glad to see long overdue sanctions on CCP 
officials for human rights abuses in Xinjiang and Tibet. I was also 
pleased that we declared China's claims in the South China Sea as 
unlawful, and deployed two carrier battle groups there for exercises. 
And after the CCP crushed Hong Kong's autonomy, the president made the 
tough but necessary decision to end certain types of special treatment 
for Hong Kong.
    In May, the Administration published a report on the implementation 
of its China strategy that goes into more detail. So this is a good 
time for the Committee to conduct oversight regarding our objectives, 
what we've done, and where we go from here.
    This is also an opportunity to discuss China legislation put 
forward by members of this committee and others. This week, I 
introduced the Strengthening Trade, Regional Alliances, Technology, and 
Economic and Geopolitical Initiatives Concerning China Act (STRATEGIC 
Act). It is a comprehensive approach to China with concrete policies in 
several key areas of the competition. I'll describe some of them 
briefly.
    We must continue our focus on China's anti-competitive economic 
policies. The Chinese government engages in intellectual property theft 
and massive financing of Chinese companies, and the most abusive anti-
free market tactic of forced technology transfer. This is a horrible 
practice--it's reprehensible.
    These policies are designed to push others out of the market and 
create monopolies. Innovative American companies like Micron 
Technologies, based in my home state of Idaho, know these challenges 
well. Their intellectual property was stolen by a Chinese company, who 
then patented that technology in China and sued Micron. The STRATEGIC 
Act authorizes new tools for U.S. companies to address the harms caused 
by such policies, among several other provisions.
    To maintain our economic and technological edge, it's not enough to 
just push back on what China is doing. We also have to strengthen and 
invest in ourselves. In other committees, I have focused on this issue 
by supporting legislation promoting U.S. manufacturing of critical 
technologies, fortifying cyber security for our infrastructure and 
small businesses, and strengthening our technology workforce.
    The STRATEGIC Act focuses on increasing technology collaboration 
with allies and partners. America is a world hub for innovation, and we 
can boost that innovation further by working with our highly capable 
partners. If we do, we will all be in a better position to develop the 
technologies of the future, and ensure they are used to uphold 
individual freedom, human rights, and prosperity.
    Finally, I want to stress the importance of deterrence. The United 
States, of course, does not seek any sort of military confrontation 
with China. However, China's military is getting bigger, more capable, 
and becoming more aggressive. In the Indo-Pacific region, we should all 
be a lot more worried about the CCP's plans for Taiwan, given what it 
just did to Hong Kong. In addition to the South China Sea, Japan faces 
almost daily incursions and pressure in the East China Sea. Beyond the 
region, China's Belt and Road Initiative is also helping the Chinese 
military expand its presence.
    We have to make it completely clear to the CCP that we are willing 
and able to defend our interests. That means reaffirming our 
commitments to our Indo-Pacific allies--even as they need to take on a 
larger role in defending the interests we share. The STRATEGIC Act 
focuses on key steps for advancing defense cooperation with our allies, 
including advocating for several difficult but important policy 
changes.
    I want to stress that this bill that I've introduced does not seek 
to block China. Rather, what it does is it offers prosperity. It offers 
an invitation to join the international community and operate under the 
rule of law and under international norms. If that happens, we all will 
prosper.
    We should not miss the bipartisan opportunity that we have today to 
address these things. I'll close with a note about bipartisanship.
    Time and time again--on everything from human rights to investment 
screening--the Senate has worked across the aisle on China. But 
unfortunately, in recent months, that has become a lot harder. We have 
a long road ahead of us in this competition. We cannot allow 
partisanship to get in the way, even in an election year. Whatever 
happens in November, China will remain an issue. If we do not work 
together, the United States as a whole will be weaker.
    I introduced this bill to push forward a serious, and bipartisan, 
conversation about the Senate's role in advancing an effective strategy 
of competition. I want to thank several of my colleagues on this 
committee, from both sides of the aisle, for joining me in that effort. 
There is both Republican and Democrat input into this bill, not only 
from this committee, but also from think tanks around Washington, DC, 
including Democrat think tanks. And I hope this will be the start of 
more cooperation to come.
    When we get to a final bill, I'm very hopeful that that bill will 
contain items that everyone has an interest in. There's been a number 
of people that have introduced bills. I know the ranking member is 
about to introduce a bill--I have no doubt that there will be things in 
there that we can all embrace. And I hope that as we get to a final 
bill, we will have things that we can embrace on a bipartisan basis.
    With that, I will turn it over to the ranking member, Senator 
Menendez.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Well, thank you, Mr. Chairman.
    Secretary Biegun, my thanks for joining us here today, 
especially as it has been so long since we have had a senior 
administration witness before the committee.
    As you and I have discussed in the past, I think the 
Administration is asking the right questions about China and 
the U.S.-China relationship. Unfortunately, however, I find 
that the Administration's strategies and policies fall well 
short of answering the enormity of the challenge. We need 
instead, as the title of this hearing suggests, an effective 
China strategy.
    The China of 2020 is not the China of 1972 or even the 
China of 2000 or 2010. China today is challenging the United 
States across every dimension of power--political, diplomatic, 
economic, innovation, military, even cultural--and with an 
alternative and deeply disturbing model for global governance.
    China today, led by the Communist Party and propelled by Xi 
Jinping's hyper nationalism, is unlike any challenge we have 
faced as a nation before. Emboldened by the retrenchment, 
shortcomings, and sometimes enablement of the Trump 
administration, China today is more active and more assertive 
in the region and in the international community than ever 
before.
    Indeed, just since this past March, China has increased its 
patrols near the Senkaku Islands in the East China Sea, as well 
as its coercive activities in the South China Sea, conducted 
air and maritime patrols intended to threaten Taiwan, clashed 
with India along the actual line of control--the People's 
Liberation Army's first use of force abroad in 30 years--
continue to implement a morally repugnant campaign of genocide 
in Xinjiang, its cruel oppression of the Tibetan people, and 
the crushing of its own civil liberty.
    Just yesterday I released a report, the New Big Brother, 
looking at how China has stepped up its game in seeking to 
export a new model of digital authoritarianism and manipulate 
new technologies to control its own citizens and people 
worldwide.
    But aside from bluster rhetoric and some hastily written 
sanctions, what has the response been from the Administration? 
The Administration is now taking strong action on Hong Kong, 
but for months when the people of Hong Kong needed us, the 
President was silent and complicit in China's erosion of Hong 
Kong's autonomy, happy to trade Hong Kong for his so-called 
trade deal.
    Along with the chairman, I welcomed regular freedom of 
navigation assertions and the Administration's recent 
clarification of our approach to claims in the South China Sea, 
but the reality is that over the past 3 years, China's 
aggression and coercion in the South China Sea has continued 
completely unchecked.
    The United Kingdom's change of policy on Huawei, while 
welcomed, was I would suggest, despite us not because of us.
    And on trade and economics, this Administration has walked 
away from building regional architecture, embraced a so-called 
phase one trade deal which seemingly achieves nothing. 
Certainly it does not address the core structural issues in the 
relationship and leaves us, in the words of your own U.S. Trade 
Representative, wondering what the end goal of your trade 
policy is. If he does not know, then we all have a real 
problem.
    On Taiwan, I note that in every year of the Obama-Biden 
administration, Taiwan was invited to the World Health 
Assembly. In no year of the Trump administration has that been 
the case. And I could go on.
    In short, I am deeply concerned that the Administration's 
approach is one which labors under the mistaken belief that 
just being confrontational is the same thing as being 
competitive. And that is my question, in fact, about the action 
announced today in Houston. I am all for safeguarding our 
national security. I understand the importance of being tough 
with China, but being tough as the means, not the ends. So 
while there may be reason for taking this action--and I look 
forward to a briefing on it in an appropriate setting--I want 
to understand better not just the tactical considerations, but 
how this measure advances our strategy. What is the effect we 
expect this to have on China's behavior? When China retaliates, 
as they have said they will, what will be our next move and our 
next after that? I am obviously not asking you to disclose 
specific actions, which I know you will not and should not, but 
this is not a simple two-step dance. So help me understand 
where you think this is all going.
    I ask this because there should be little doubt that we 
are, indeed, in a new era of strategic competition with China, 
and the United States needs a new strategic framework and a new 
set of organizing principles to address the challenges of this 
new era. So far, and despite all the bluster, that effective 
new strategy has been utterly lacking from this Administration.
    One of the core organizing principles I would suggest is 
the importance of working in close coordination with our allies 
and partners to develop a shared and effective approach to 
China. And I have to say, Secretary Biegun, that the 
Administration's disastrously wrong-headed, alienating, and 
attacking approach to our alliances has been one of the most 
disheartening to witness these past several years. Our 
alliances, our partnerships, and the shared values on which 
they stand and our reliability in the face of adversity are our 
special source for effective global leadership. This value-
driven diplomacy is one of the reasons why Senator Rubio and I 
have joined colleagues around the globe to form the 
International Parliamentary Alliance on China, IPAC, to provide 
the vision and leadership and build the relationships needed 
for our strategic success.
    I know you argue that this President and the Administration 
have been uniquely successful with China, and I know you are 
good at your job. But facts are indeed stubborn things.
    Now, before the hearing devolves into a hearing bashing 
China and the World Health Organization for the COVID pandemic, 
let me assure you, one, I stand second to no one in this body 
regarding concerns over how China's paranoid totalitarianism 
contributed to its spread. But blame game politics will not 
save American lives. Instead of relying on science and 
knowledge, the Administration has spent its energy towards 
finding fault and racially inflammatory rhetoric that both 
threatens the safety and well-being of Asian Americans and 
further alienates us on the global stage, including at the G-7 
and the U.N. Security Council.
    If the Administration is truly concerned about China's 
malign intent at the World Health Organization and elsewhere, 
there is a simple solution: show up, take action. If the U.S. 
leads, others will follow. If we leave the field open, if our 
own country cannot develop the serious strategy at home, others 
like China are only too eager to step into the vacuum.
    I know the chairman, as he has mentioned, has introduced 
legislation today on China. I welcome his effort. As I 
mentioned at another hearing this morning, I am also working 
with colleagues on a bill to create a comprehensive China 
strategy, cross cutting jurisdictions beyond, including this 
committee, including trade and economic issues and investments 
here at home, which we plan to shortly introduce. Given the 
shortcomings of the President's bluster and tactics but no 
strategy approach to China, a comprehensive and integrated 
approach is needed. I suspect there will be many areas of 
agreement between my bill and the chairman's, and so I look 
forward to working with him on a combined approach.
    And it is in this spirit, Mr. Secretary, that I implore you 
today beyond this hearing in a genuine conversation with us 
about how we work together to develop a comprehensive approach 
to China, to reset our strategy and our diplomacy, to reinvest 
and replenish the sources of national strength and 
competitiveness at home, to place our partnerships and allies 
first that reflects our fundamental values as Americans.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Menendez. I think in 
comparing our two statements, we have much to agree on, and 
overall I think we both agree that this comprehensive strategy 
is needed as we go forward. And I can assure you when you do 
get that briefing on the closing, you certainly will agree that 
the closing was appropriate under the circumstances.
    So with that, I want to turn to our witness. The Honorable 
Stephen Biegun was sworn in as Deputy Secretary of State in 
December of 2019. Immediately prior, he served as U.S. Special 
Representative for North Korea. Mr. Biegun has three decades of 
experience serving in both the executive and legislative 
branches, including a stint as Chief of Staff for the Senate 
Foreign Relations Committee.
    Deputy Biegun, we appreciate your being here today, and I 
invite you to have the floor.

STATEMENT OF HON. STEPHEN E. BIEGUN, DEPUTY SECRETARY OF STATE, 
            U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Biegun. Thank you, Mr. Chairman. Thank you, Senator 
Menendez.
    If I may ask for my full statement to be submitted to the 
record. I would like to give a shorter version in order to 
leave maximum time for members' questions today.
    The Chairman. That is certainly agreeable, and we will 
include your full statement in the record.
    Mr. Biegun. Again, thank you both for the invitation to 
testify today. It truly is a pleasure and I am pleased to be 
back. As you both pointed out, this is an important moment in 
U.S.-China relations, and the Secretary and I appreciate your 
serious focus and that of the whole committee in trying to 
shape a bipartisan approach to this vital policy matter. We 
recognize that to be successful, U.S. policy towards the PRC 
must be grounded in consensus across our governing institutions 
and across our society.
    Mr. Chairman, for this reason we welcome the legislation 
you introduced today, and Senator Menendez, we look forward to 
seeing yours as well. These are designed to frame the U.S. 
strategic approach towards the People's Republic of China, and 
this, along with all the other recent legislation passed by the 
Congress, have provided us with crucial tools to advance our 
policies against the challenges that we face.
    Across multiple administrations, the United States has 
supported China's entry into the rules-based international 
order in hopes that China would be a partner in upholding 
international law, norms, and institutions, and that the United 
States and China could develop a friendly relationship with 
reciprocal benefit. Over more than three decades, U.S. policies 
towards the PRC have advanced that goal through a massive 
outpouring of international assistance and lending through 
foreign investment, facilitation of Chinese membership in 
global institutions, and the education of millions of China's 
brightest scholars at our best universities.
    Where this Administration diverges from previous 
administrations is in the will to face the uncomfortable truth 
in U.S.-China relations, that the policies of the past three 
decades simply have not produced the outcomes for which so many 
had hoped, and that the United States must take decisive action 
to counter the PRC at this moment.
    As stated in the 2017 National Security Strategy, despite 
the huge dividends to the PRC in terms of prosperity, trade, 
and global influence that the United States supported and its 
engagement had delivered, Beijing has instead chosen to take 
increasingly a hard line and aggressive actions both at home 
and abroad. And China has emerged as a strategic competitor to 
the United States and to the rules-based global order.
    We find the China-U.S. relationship today weighed down by a 
growing number of disputes, including commercial espionage and 
intellectual property theft from American companies, unequal 
treatment of our diplomats, businesses, NGOs and journalists by 
Chinese authorities, and abuse of the United States' academic 
freedom and welcoming posture towards international students to 
steal sensitive technology and research from our universities 
in order to advance the PRC's military capabilities.
    It is these factors which has led the President to direct a 
number of actions in response, including yesterday's 
notification to the PRC that we have withdrawn our consent for 
the PRC to operate its consulate in Houston, Texas.
    There is also growing alarm around the world about the 
dismantling of Hong Kong's autonomy, liberty, and democratic 
institutions, the arbitrary mass detentions and other human 
rights abuses in Xinjiang, efforts to eliminate Tibetan 
identity, military pressure against Taiwan, and the assertion 
of unfounded maritime claims in the South China Sea. Other 
areas of concern include China's increasingly assertive use of 
military and economic coercion and state-sponsored 
disinformation campaigns including, among others, against 
India, Australia, Canada, the UK, ASEAN members of the European 
Union, and several other European countries.
    At the Department of State, both Secretary Pompeo and I are 
involved day to day in the full range of policy matters related 
to the PRC, an issue that touches upon every dimension of the 
Department of State's work. The Department has launched a 
number of diplomatic and economic policy initiatives described 
in more detail in my written testimony to uphold and defend our 
interests and those of our friends and allies in areas such as 
global infrastructure development, market access, and 
telecommunications security. Much of what we are doing would 
serve our global interests under any circumstances, but the 
unfortunate trends we see in China make our actions all the 
more urgent.
    We have organized internally, through the leadership of the 
Assistant Secretary of State for East Asia and the Pacific, 
along with the Directors of Policy Planning and our Global 
Engagement Center, to align internal policymaking in virtually 
every single bureau and office in the Department. We are 
likewise organizing our diplomats to focus on competition with 
China around the world.
    As part of a comprehensive approach, we are engaged with 
allies and partners in the G-7, the G-20, and NATO to highlight 
the threat that the PRC poses not just to the United States' 
interests but also the interests of our allies and partners. We 
are broadening partnerships across the transatlantic community, 
the Indo-Pacific, the Middle East, Africa, and the western 
hemisphere.
    Across the Indo-Pacific region, the United States is 
deepening relationships with the countries that share our 
values and interests in a free and open Indo-Pacific. Last 
September, we held a ministerial level meeting of the United 
States, Australia, India, and Japan marking a new milestone in 
our diplomatic engagement in a new Indo-Pacific Quad in the 
region.
    We are enhancing our alliances with Australia, Japan, the 
Republic of Korea, the Philippines, and Thailand, which have 
helped sustain peace and security for generations, and we are 
furthering our cooperation with ASEAN, an organization central 
to a free and open Indo-Pacific.
    Our security assistance to South China Sea claimant states 
and our recent rejection of the PRC's maritime claims helps 
partners protect their autonomy and maritime resources.
    We are working with the Mekong countries to ensure 
sustainable development in energy security, and we have doubled 
development assistance to our Pacific island partners through 
the Pacific Pledge.
    On the other side of the world, China has increasingly 
become a topic of transatlantic and Five Eye discussions. The 
Secretary recently announced that the United States has 
accepted the EU's proposal to create a U.S.-EU dialogue on 
China to discuss our common concerns about the threats that the 
PRC poses to our shared democratic values. Similarly, the PRC 
is a core topic of our security dialogues with the United 
Kingdom, Australia, New Zealand, and Canada.
    In our hemisphere, the United States is working with 
neighbors to reaffirm the region's longstanding dedication to 
free societies and free markets. We are working on improving 
the investment climate for all types of infrastructure, 
including energy, airports, ports, road, telecom, and digital 
networks. In addition to USAID development and humanitarian 
assistance, we expect the United States International 
Development Finance Corporation to deploy $12 billion to the 
western hemisphere in the coming years, all towards this effort 
of making a priority of promoting transparency and privacy in 
particular in the digital economy.
    Though the PRC has made extensive inroads across Africa 
over the past decade, encouragingly some African governments 
have begun to monitor Chinese projects, require Chinese firms 
to employ more African labor, and demand protection of Africa's 
fragile ecosystems. Our diplomatic engagement on the continent 
will continue to highlight the perils of opaque and 
unsustainable PRC lending practices.
    In the Middle East, we have successfully engaged with 
partners to recognize the core costs that come with certain 
commercial engagements with the PRC especially 
telecommunications infrastructure.
    And finally, we are working with allies and partners to 
prevent the PRC from undermining international organizations 
through undue influence.
    Mr. Chairman, consistent with the priorities of your 
legislation, I should also underscore that engagement between 
the United States and China remains of central importance in 
managing tensions and exploring areas of mutual interest where 
efforts might align. But we will only make a difference if our 
engagement produces real progress on the many issues that I 
have enumerated today.
    Last month, I joined Secretary Pompeo in Hawaii to meet 
with our Chinese counterparts. In the 2-day discussion, the 
Secretary stressed that deeds, not words, were the pathway to 
achieve mutual respect and reciprocity between our countries 
across commercial, security, diplomatic, and people-to-people 
interactions. He made clear our determination to push back 
against Beijing's efforts to undermine democratic norms, 
challenge the sovereignty of our friends and allies, and engage 
in unfair trade practices. But at the same time, he outlined 
areas where the United States and the PRC could cooperate to 
solve global challenges.
    Among the issues that we could start with are strategic 
stability around nuclear capabilities and doctrine, coordinated 
efforts to identify the origins and spread of COVID-19, a 
denuclearized North Korea that ensures peace and stability for 
all who live on the Korean Peninsula, peace-building in 
Afghanistan, international narcotics production and 
trafficking, and as evidenced by the phase one trade deal 
earlier this year, balanced and reciprocal economic policies 
that will benefit both countries. The United States also 
welcomes people-to-people exchanges, including the hosting of 
each other's students, provided that they are here exclusively 
for the purpose of study.
    We would also welcome Members of Congress from both sides 
of the Capitol and both sides of the aisle to not only work in 
partnership with the executive branch, but to also extend your 
own engagement to better understand the aspirations of the 
Chinese people. Of course, this includes meeting with your 
Chinese Government counterparts, but it must also include 
reaching out to the many voices of China that are found outside 
of China, those not free to be heard at home and therefore 
requiring our assistance to be heard.
    Let me be clear. The United States supports the aspirations 
of those Chinese people who seek to live in peace, prosperity, 
and freedom. Secretary Pompeo has met with pro-democracy 
leaders from Hong Kong, with Chinese dissidents and survivors 
of repression in Xinjiang, and last month I was honored to 
present the International Women of Courage Award to the Mothers 
of Tiananmen. The bravery of many Chinese people who seek to 
advance human rights and universal freedoms inspires us all in 
our work.
    Mr. Chairman, we are urgently taking the necessary steps to 
defend the interests of the United States. As we seek to 
correct the imbalance in our relations with China, we must 
address today's realities while, at the same time, leaving open 
tomorrow's possibilities. With our friends and allies, we are 
standing up for universal rights and the rules-based 
international system, the system that has provided the world's 
collective peace, security, and prosperity for generations to 
the benefit of the United States, the People's Republic of 
China, and the entire world.
    Thank you.
    [The prepared statement of Mr. Biegun follows:]

                Prepared Statement of Stephen E. Biegun

    Mr. Chairman, Ranking Member Menendez, Members of the Committee, 
thank you for providing me the opportunity to testify today regarding 
United States policy towards the People's Republic of China, or the 
PRC. This is an important moment in the U.S.-China relationship, and 
the Secretary and I appreciate the serious focus that your Committee is 
taking to shaping a bipartisan approach to this vital policy priority. 
As the Secretary has said, China is the first foreign policy challenge 
he thinks about each morning, and every one of us at the Department of 
State is focused on succeeding in this critical effort.
    I want to begin by restating what Secretary Pompeo made clear in 
October. He said, ``We have a long-cherished tradition of friendship 
with the Chinese people. We continue to do so today. We have a Chinese-
American community here in America that we love and treasure . . . The 
Chinese Communist Party today is not the same as the Chinese people.'' 
Let me be clear: the United States supports the aspirations of those 
Chinese people who seek to live in peace, prosperity, and freedom.
    Over the course of many years and across multiple administrations, 
in our relations with Beijing, the United States has sought to spur 
China's integration into the rules-based international order by 
strengthening, not undermining, international law, norms, and 
institutions. Over more than three decades, U.S. policies towards China 
have been aimed at that goal--by supporting China's economic 
development through the massive outpouring of international assistance 
and lending to develop infrastructure and economic institutions; by 
beneficial trade treatment and robust foreign investment; by 
facilitation of Chinese membership in global institutions such as the 
World Trade Organization; by development and humanitarian assistance, 
by the education of millions of China's brightest scholars at our best 
schools; and by intensive commercial diplomacy to address strategic and 
sectoral economic concerns. We anchored economic and diplomatic 
policies toward China in the expectation that they would produce the 
gradual but eventual opening and liberalization of China and its 
peaceful rise in a manner that would enhance stability in the Indo-
Pacific and beyond, increase the freedoms of its own people, and expand 
global prosperity in a mutually beneficial manner.
    Where this Administration diverges from previous Administrations is 
in the will to face an uncomfortable truth in the U.S.-China 
relationship--the policies of the past three decades have simply not 
produced the outcome for which so many had hoped. As stated in the 2017 
National Security Strategy: ``(f)or decades, U.S. policy was rooted in 
the belief that support for China's rise and for its integration into 
the post-war international order would liberalize China. Contrary to 
our hopes, China expanded its power at the expense of the sovereignty 
of others. China gathers and exploits data on an unrivaled scale and 
spreads features of its authoritarian system, including corruption and 
the use of surveillance. It is building the most capable and well-
funded military in the world, after our own. Its nuclear arsenal is 
growing and diversifying. Part of China's military modernization and 
economic expansion is due to its access to the U.S. innovation economy, 
including America's world-class universities.''
    As further stated in the National Security Strategy, ``(a)lthough 
the United States seeks to continue to cooperate with China, China is 
using economic inducements and penalties, influence operations, and 
implied military threats to persuade other states to further its 
political and security agenda. China's infrastructure investments and 
trade strategies reinforce its geopolitical aspirations. Its efforts to 
build and militarize outposts in the South China Sea endanger the free 
flow of trade, threaten the sovereignty of other nations, and undermine 
regional stability. China has mounted a rapid military modernization 
campaign designed to limit U.S. access to the region and provide China 
a freer hand there. China presents its ambitions as mutually 
beneficial, but Chinese dominance risks diminishing the sovereignty of 
many states in the Indo-Pacific. States throughout the region are 
calling for sustained U.S. leadership in a collective response that 
upholds a regional order respectful of sovereignty and independence.''
    Secretary Pompeo summed up this strategic shift in his October 30 
speech: ``It is no longer realistic to ignore the fundamental 
differences between our two systems and the impact that . . . the 
differences in those systems have on American national security . . . 
Today, we are finally realizing the degree to which the Communist Party 
is truly hostile to the United States and our values.''
    An honest assessment of trends in the U.S.-China relationship 
suggests that reconsideration of U.S. policy toward China is urgent and 
overdue. The United States must respond with the full toolkit of policy 
instruments. These instruments will be adapted to defend against PRC 
efforts to undermine U.S.-supported institutions, respond to actions 
that encroach upon the sovereign interests of our allies and partners, 
hold the PRC accountable for its human rights violations and abuses, 
and respond to Chinese policies that fail to provide reciprocal 
opportunities for equivalent U.S. entities.
    Concerns about Beijing's policies are fueled by a growing number of 
disputes and areas of concern. These longstanding areas of concern 
include intellectual property theft and commercial espionage (including 
through cyber-enabled means), unequal treatment of U.S. diplomats, 
exporters and investors, non-governmental organizations, social media 
companies, and traditional media outlets and journalists in China, as 
well as the abuse by PRC security services of the United States' open 
and welcoming posture toward Chinese students and researchers. 
Additional areas of concern include the dismantling of Hong Kong's 
autonomy, liberty, and democratic institutions, military pressure 
against Taiwan, arbitrary mass detentions and other human rights abuses 
in Xinjiang, efforts to eliminate Tibetan identity, and the assertion 
of unfounded maritime claims in the South China Sea. Finally, there is 
growing alarm in the United States and around the world with the 
Chinese government's use of military and economic coercion and state-
sponsored disinformation campaigns against the United States and our 
allies and partners, including, among others, India, Australia, Canada, 
the European Union, and several individual European governments.
    United States foreign policy toward the People's Republic of China 
roughly falls within five broad areas:

  <bullet> First, using the full toolkit of United States foreign 
        policy instruments including diplomatic engagement, public 
        diplomacy, foreign assistance, commercial diplomacy, trade law, 
        law enforcement, export controls and sanctions, and military 
        deterrence;

  <bullet> Second, steady application of pressure to push back the 
        PRC's attempt to change and replace the U.S.-led free and open 
        international order in areas of dispute or competition;

  <bullet> Third, reciprocal and transparent treatment of PRC 
        institutions and organizations commensurate with PRC treatment 
        of equivalent U.S. entities;

  <bullet> Fourth, close cooperation among all U.S. stakeholders in the 
        relationship with the People's Republic of China, including 
        bipartisan engagement, Congressional-Executive coordination, 
        the expert and think tank community, academia, business and 
        civil society;

  <bullet> And fifth, strengthening international cooperation with 
        allies and partners on shared concerns with the conduct of the 
        Chinese Communist Party, with special emphasis in the Indo-
        Pacific.

    The United States and the PRC are likely for the foreseeable future 
to remain competitors, but this does not mean our two nations need to 
be enemies. As the Administration has reiterated, we seek a 
constructive and results-oriented relationship with Beijing, and we 
will cooperate with China where our interests align. U.S. policies are 
designed to protect our interests, we do not envision a zero sum game 
as long as China abides by the key principle of reciprocity and 
transparency. Indeed, we want to see a prosperous China that is at 
peace with its own people and with its neighbors. Historically, in 
shaping the U.S.-China relationship, numerous Presidents have engaged 
with China's leaders in direct diplomacy and held any number of 
strategic dialogues, sectoral dialogues, and security dialogues over 
the past several decades to resolve problems and advance mutual 
interests.
    While the days of high-level ceremonial dialogues that didn't 
produce concrete results are over, we still continue to advance our own 
interests by remaining directly engaged at every level with the PRC 
from the President on down, under the principle of reciprocity and 
transparency. Such engagement remains an important means to manage 
tensions and explore areas of mutual interest where cooperation might 
flourish. Among the issues that we could start with are strategic 
stability around nuclear capabilities and doctrine; coordinated efforts 
to identify the origins, and spread of COVID-19; a denuclearized North 
Korea to ensure peace and stability on the Korean Peninsula; peace 
building in Afghanistan; efforts to stem international narcotics 
production and trafficking; locating and returning the remains of our 
service members from the World War II, the Korean War, and the Vietnam 
War; and, as evidenced by the Phase One trade deal agreed earlier this 
year, balanced and reciprocal economic policies.
                         using the full toolkit
    The China challenge is serious and of grave consequence to the 
United States. Government leaders are therefore responsible for 
explaining to the American people the key aspects of the threats posed 
by the PRC to our freedoms and democratic way of life. Initiated by 
Secretary of State Pompeo, the senior-most U.S. officials, including 
National Security Adviser Robert O'Brien, FBI Director Christopher 
Wray, and Attorney General Bill Barr, delivered a series of important 
speeches on this topic. Tomorrow, Secretary Pompeo will continue the 
series in a China policy address at the Nixon Library to rally the 
American people to confront the daunting threat posed by the Chinese 
Communist Party.
    As Secretary Pompeo will detail, the U.S. approach utilizes the 
full toolkit of United States foreign policy instruments to push back 
the PRC's attempt to export its Communist model of governance. The 
United States is actively pursuing our policies through diplomatic 
engagement, public diplomacy, export controls and sanctions, countering 
disinformation and propaganda, foreign assistance, commercial 
diplomacy, trade law, law enforcement, and military deterrence.
    The core of our diplomatic work is to reinforce the principles of 
democratic governance, the rule of law, and sustainable development, 
including by shining a spotlight on PRC behavior that is out of line 
with internationally recognized norms, standards, and best practices. 
Too often, the PRC, through its state-owned enterprises, has enabled 
corruption, eroded good governance and the rule of law, weakened labor 
rights, and damaged the environment. We are working with allies and 
partners to press Beijing to meet high standards in terms of 
transparency, adherence to the rule of law and anti-corruption 
practices, debt sustainability, labor rights, environmental best 
practices, and the concerns of local communities.
    Attorney General Barr and FBI Director Wray have been active in 
leading our efforts to counter PRC malign actions here at home. They 
have recently outlined for the American people their China Initiative 
and are raising awareness of the threats we face from CCP activities.
    An integral component of this global effort is on the economic 
front, where the PRC has leveraged its state-led economic model to 
undercut fair competition and advance its own goals. Beijing's statist 
model and massive corporate subsidies mean any economic initiative, 
such as the PRC's One Belt One Road initiative, will have distorting 
effects while also potentially advancing malign PRC political 
objectives. Further, the PRC's billions of dollars of opaque loans to 
emerging-market economies undermine the governance and autonomy of 
vulnerable countries around the world, fueling corruption and 
autocratic behavior in struggling democracies.
    The United States has been on the forefront of raising global 
awareness about the dangers of PRC lending and investment. Untrusted 
PRC telecommunications vendors such as Huawei and ZTE benefit from 
substantial market distorting subsidies and are beholden both legally 
and extra-judicially to the PRC. The President recently released the 
National Strategy to Secure 5G outlining lines of effort the United 
States is taking both at home and in its engagement overseas. The State 
Department is implementing the national strategy through the Clean 
Networks initiative to address the threat posed to the United States, 
our allies, and partners by untrusted vendors including to critical 
infrastructure, privacy, security, and human rights. Under the umbrella 
of our related Economic Prosperity Network, the United States is 
advancing initiatives to promote the principles of trust, reciprocity, 
accountability, integrity, and respect among a voluntary coalition of 
partner countries, companies, and civil society organizations. Some key 
initiatives include:

  <bullet> Clean Networks: This is a comprehensive effort by a 
        coalition of like-minded countries and companies to secure 
        their critical telecommunications, cloud, data analytics, 
        mobile apps, Internet of Things, and 5G technologies from 
        malign actors by relying on only trusted vendors who are not 
        subject to unjust or extra-judicial control by authoritarian 
        governments, such as the Chinese Communist Party. Clean 
        Networks consists of multiple lines of effort all rooted in 
        Digital Trust Standards.

  <bullet> Investment Screening Outreach: The Department of State, 
        together with the Department of Treasury, works closely with 
        foreign governments to encourage the adoption and full 
        implementation of factually rigorous, transparent, and national 
        security focused investment screening mechanisms.

  <bullet> Deal Teams: Through the Deal Team initiative launched by the 
        Departments of State and Commerce in February, we helping U.S. 
        firms more effectively compete and win projects abroad.

  <bullet> Strategic Infrastructure: The Infrastructure Transaction and 
        Assistance Network (ITAN) is a great example of a specialized 
        deal team in action. This group of 11 agencies has identified 
        and advanced more than $125 billion in infrastructure deals in 
        the Indo-Pacific. Alongside partners such as Japan and 
        Australia, we are providing credible, collective alternative to 
        Beijing's One Belt One Road offerings.

  <bullet> Digital Connectivity and Cybersecurity Partnership: The 
        Digital Connectivity and Cybersecurity Partnership is a whole 
        of government effort to promote a vibrant digital economy in 
        developing countries, based on transparency and privacy. This 
        initiative is a direct challenge to Chinese government's 
        efforts to export its authoritarian approaches to internet 
        governance.

  <bullet> Blue Dot Network: The Blue Dot Network, launched at the 
        Indo-Pacific Business Forum in November 2019 with Japan and 
        Australia, is a multi-stakeholder initiative to certify quality 
        infrastructure investment projects. The Blue Dot Network is 
        another example of how we use a positive approach to show case 
        the infrastructure investment best practices employed by the 
        United States and our partners.

  <bullet> Debt Service Suspension Initiative: With like-minded 
        partners, the World Bank, and the IMF, we are leveraging the 
        G20-Paris Club Debt Service Suspension Initiative (DSSI) to 
        increase debt transparency and address opaque and unsustainable 
        PRC lending. The United States is faithfully implementing the 
        DSSI by suspending official bilateral debt payments from the 
        poorest countries to year-end 2020, providing those countries 
        fiscal space to fund social, health, and other measures to 
        respond to the pandemic.

    The UK's recent commendable decision to ban Huawei gear from its 5G 
networks is an indication of a growing international consensus that PRC 
government control over all aspects of society--including private 
industry--is a security risk. The UK joins the United States and many 
other democracies in putting in place strong measures to mitigate the 
security risks posed by untrusted suppliers. In the same way, many 
major telecom companies like Spain's Telefonica and Japan's NTT have 
committed to only using trusted vendors. We are glad to see that many 
of our allies and partners, including the UK, recognize this threat.
    On April 29, Secretary Pompeo announced that the Department of 
State will require a 5G Clean Path between the United States and U.S. 
diplomatic facilities for secure 5G standalone end-to-end 
communications so that they do not use any transmission, control, 
computing, storage equipment, or services from an untrusted 5G vendor, 
such as Huawei or ZTE. A number of countries such as Poland are joining 
us in requiring a clean path for their own diplomatic facilities.
    Further, the Peruvian government's recent decision to select the UK 
as Peru's Infrastructure Delivery Partner to rebuild facilities damaged 
by El Nino--excluding the PRC by default because it couldn't meet 
international standards--is an excellent example of how our promotion 
of international standards is being adopted by countries around the 
globe, even when the United States is not directly involved.
                     steady application of pressure
    We at the Department of State are working hard every day to counter 
Beijing's threatening and malign activities around the world. Put 
simply: we are holding the PRC to its commitments, both to us and to 
international law and standards. We are challenging PRC behavior and we 
will call Beijing out publicly when it falls short. We will defend our 
interests and those of our friends and allies when they are threatened.
    The past few weeks alone have seen particularly egregious examples 
of PRC dangerous and malign actions: violence on the border with India; 
aggressive moves in the South China Sea and around Taiwan and the 
Senkakus Islands; and the unilateral imposition of draconian ``national 
security'' legislation on Hong Kong, in clear violation of its treaty 
law obligations under the Sino-British Joint Declaration. Contravening 
the Universal Declaration of Human Rights of which the PRC is a 
signatory, the PRC has perpetuated a years-long brutal campaign of 
repression against Uyghurs and members of other Muslim minority groups 
in Xinjiang, including arbitrary mass detention, forced labor, coercive 
family planning practices, and restrictions on cultural and religious 
expression, reminiscent of its longstanding mistreatment of Tibetans.
    On July 13, Secretary Pompeo announced an important step to 
strengthen U.S. policy on maritime claims in the South China Sea. That 
announcement made clear: Beijing's claims to offshore resources across 
most of the South China Sea are unlawful, as is its campaign of 
bullying to control them. We are standing with Southeast Asian coastal 
states to uphold their sovereign rights under international law. We 
welcomed your bicameral joint statement on the South China Sea, 
Chairman Risch and Ranking Member Menendez, reflecting American resolve 
in clarifying the United States' position that the PRC's maritime 
claims in the South China Sea are unlawful.
    The Department of Defense is actively continuing to sail, fly, and 
operate wherever international law allows. In the South China Sea, 
Beijing uses intimidation to undermine the sovereign rights of 
Southeast Asian coastal states, bully them out of offshore resources, 
assert unilateral dominion, and replace international law with ``might 
makes right.'' Beijing's approach has been clear for years. In 2010, a 
senior PRC official told his ASEAN counterparts that ``China is a big 
country and other countries are small countries and that is just a 
fact.'' The PRC's predatory worldview has no place in the 21st century.
    Countries large and small, such as Australia, Canada, the member 
states of the EU, Vietnam, and others, are standing up to PRC tactics. 
In retaliation for Australia's strong push back on PRC actions, Beijing 
has taken to imposing punitive tariffs on Australian exports to the 
PRC, and ``warning'' Chinese tourists and students to avoid Australia 
for fabricated reasons. Shortly after Canadian police arrested Huawei 
Chief Financial Officer Meng Wanzhou on a U.S. arrest warrant in 
December 2018, Beijing detained two Canadian men on politically 
motivated security charges. Last month, Canadian Prime Minister Justin 
Trudeau rejected a call to swap Meng for the two Canadian citizens held 
by Beijing, saying such a move would set a bad precedent and harm 
Canada.
    The PRC has been particularly aggressive in using U.S. academic 
freedoms to co-opt U.S. expertise and steal intellectual property. This 
is a key aspect of its Military-Civil Fusion strategy that includes a 
campaign to acquire sensitive U.S. technologies and intellectual 
property to bolster its military modernization efforts. To protect the 
integrity of our open and collaborative research system and ensure that 
the United States remains the global leader on cutting-edge research, 
last month President Trump issued a proclamation suspending the entry 
of graduate and post-graduate students and researchers associated with 
entities that support the PRC's Military-Civil Fusion strategy.
    The Department of Justice and FBI continually announce new cases 
involving investigations and indictments of Chinese nationals 
attempting to steal U.S. technology, trade secrets, and even 
individuals' personal data. This week's indictment of Stanford 
researcher Song Chen, who lied about her status as an active member of 
the PRC military, is but a latest example. As FBI Director Christopher 
Wray said earlier this month, if you are an adult U.S. citizen, it is 
more likely than not that the PRC has stolen your personal data, and 
the FBI is opening a new China-related counterintelligence case about 
every 10 hours.
    A key element of the PRC's strategy is to provide political, 
technological, and economic support to those who are willing to turn a 
blind eye to the PRC's lucrative deals at the expense of the citizens 
of developing nations, thereby enabling the rule of autocrats and 
kleptocrats globally. Specifically, the PRC exports technological know-
how that can help authoritarian governments track, reward, and punish 
citizens through a system of digital surveillance. We have seen more 
than a dozen nations in Africa alone import Huawei's AI surveillance 
technology that can reduce the cost and increase the efficiency of 
authoritarianism. Moreover, we are carefully tracking a sweeping 
economic and security partnership between China-Iran that, if finalized 
and funded, could enable Iran to expand funding to its nuclear and 
military ambitions and malign activities in the Middle East region.
    The United States has steadily applied pressure to prevent and 
respond to the full range of PRC malign actions as part of our 
systematic realignment of the relationship. For example, on June 26, 
Secretary Pompeo announced visa restrictions on Chinese government 
officials who have undermined Hong Kong's high degree of autonomy and 
liberty. On July 9, the Secretary imposed visa restrictions on three 
senior PRC officials and their immediate family members for their role 
in human rights abuses in Xinjiang; in parallel, the Treasury 
Department imposed financial sanctions on those officials, one 
additional official, and the Xinjiang Public Security Bureau. And on 
July 15, the Secretary announced visa restrictions on certain personnel 
from Chinese technology companies, such as Huawei, which provide 
material support to regimes perpetrating human rights violations 
globally. These and other measures demonstrate U.S. resolve to protect 
our interests and uphold our values.
               restoring reciprocity in the relationship
    A key principal underpinning international relations is reciprocity 
between nations. For many years, the United States tolerated imbalance 
in its relationship with Beijing. While the space for U.S. diplomats 
and journalists to engage with civil society and local leaders in China 
has decreased, PRC diplomats continue to have access to all levels of 
U.S. government and educational institutions. As U.S. companies 
operating in China face unfair and discriminatory treatment, PRC state-
owned and private companies continue to invest in the United States. As 
part of our strategy to achieve more reciprocal relations and ensure 
that U.S. interests are safeguarded, we are pressing Beijing to reverse 
these trends and increase access for U.S. companies, media outlets, and 
diplomats.
    The PRC's abuse of public diplomacy programs is particularly 
egregious. Last year, Senators Portman and Carper completed an in-depth 
study of this imbalance in public diplomacy, and we welcomed the 
bipartisan Congressional call for more reciprocity in the U.S.-China 
relationship. In most countries around the world, a U.S. ambassador 
would be welcomed on a university campus, usually with quite a bit of 
fanfare. The story is quite different in China, where the Communist 
government fears a free exchange of ideas. While Chinese professors and 
students might seek to engage with China-based foreign diplomats, 
Chinese authorities often make such engagements difficult or 
impossible. The PRC has increasingly impeded U.S. access to segments of 
Chinese society, including in academic settings. In contrast, the 
Chinese Ambassador to the United States and Chinese diplomatic staff 
regularly address U.S. audiences, including on university campuses, 
free from obstruction by the U.S. government.
    At the height of the COVID-19 outbreak in Wuhan, the PRC used 
government-controlled media outlets to sow propaganda and 
disinformation. China expelled respected independent journalists from 
the New York Times, the Wall Street Journal, and the Washington Post at 
precisely the moment when the world most needed objective reporting. 
While Beijing has imposed increasingly harsh surveillance, harassment, 
and intimidation against American and other foreign journalists 
operating in China, it fashioned its media presence in the United 
States and abroad into propaganda outlets that have operated with free 
rein. To reflect these institutions' actual relationship with the state 
and to gain greater insight and visibility into Chinese propaganda 
operations in the United States, since February the United States has 
designated the U.S.-based operations of nine PRC propaganda outlets--
including Xinhua, People's Daily, and China Global Television Network--
as foreign missions. This decision officially recognizes these outlets 
for what they are--entities under Beijing's control and outlets for 
Chinese propaganda. It also makes clear to ordinary Americans what they 
are not--independent media.
    In March, the United States clearly communicated the severity of 
our concern about the abusive, unfair, and non-reciprocal treatment of 
international press in the PRC. We capped the number of Chinese citizen 
personnel allowed to work for U.S. offices of four of these designated 
PRC propaganda outlets. The number of Chinese personnel allowed now 
more closely matches the number of American journalists that Beijing 
allows to operate in the PRC. This long overdue step towards achieving 
greater reciprocity with the PRC is designed to spur Beijing to adopt a 
more fair and reciprocal approach to U.S. and other foreign independent 
press in China.
    Reciprocal treatment is also a challenge for non-governmental 
organizations. In China, a 2017 Foreign NGO Management Law required 
foreign NGOs to register with the Ministry of Public Security and to 
find a state-sanctioned sponsor for their operations. NGOs that fail to 
comply face possible civil or criminal penalties. Not surprisingly, the 
number of foreign NGOs operating in China has dropped sharply. In 
contrast, in the United States we recognize that NGOs, think tanks, and 
other organizations are vital to a vibrant civil society. Our 
regulations are designed to facilitate and support their formation.
                             unity at home
    We recognize that to be successful, U.S. policy towards the PRC 
must be grounded in shared commitments across our society. In short, we 
as a nation must be unified in purpose and coordinated in our efforts 
to address the challenges posed by Beijing. Congress is essential to 
building this shared approach. Mr. Chairman, for this reason, the 
legislation you introduced this week designed to frame the U.S. 
strategic approach to China is very important and we look forward to 
working with you and this Committee.
    Today's hearing is a good opportunity for further dialogue as we 
look to strengthen unity of purpose between the Executive Branch and 
Congress. Beijing's recent decisions to restrict visas on some members 
of this Committee and the China Commission is an example of how the PRC 
is seeking to divide us and target those who might speak up about 
issues like human rights. Since its inception, Congress has led the way 
in advocating and reflecting the values of the American people. An 
essential component of U.S. policy towards the PRC is upholding the 
rights and freedoms the United States has always stood for, whether by 
exposing human rights abuses in Xinjiang and Tibet, fighting for press 
freedom, or supporting the rights of peaceful protesters and democratic 
institutions in Hong Kong.
    Recent bipartisan legislation is crucial to calling out and 
combating Beijing's predatory actions. The Foreign Investment Risk 
Review Modernization Act (FIRRMA) expanded the authorities of the 
Committee on Foreign Investment in the United States' (CFIUS), better 
protecting national security by allowing for a review of non-
controlling investments that involve critical technology, critical 
infrastructure, or sensitive personal data, and certain real estate. 
The Hong Kong Human Rights and Democracy Act (HKHRDA), Hong Kong 
Autonomy Act (HKAA), and the Uyghur Human Rights Policy Act underscored 
to Beijing the U.S. Government remains united with respect to our human 
rights concerns. And Senators Gardner and Markey's Asia Reassurance 
Initiative Act (ARIA) is an important bipartisan framework for U.S. 
leadership in the Indo-Pacific.
    Our unity of approach also relies on our thought leaders and their 
ideas and engagements. The foreign policy think tank communities in our 
country, and around the world, are engaged in open debate on the future 
of China. Many of our keenest foreign policy observers and China 
experts are asking probing questions about the PRC's goals and 
ambitions and what they mean for the United States. We welcome this 
dialogue as we build an American consensus about U.S. policy towards 
China.
    U.S. non-governmental organizations are similarly grappling with 
the PRC's increasingly assertive actions around the globe. This spring, 
I asked two leading democracy NGOs on each side of the U.S. political 
spectrum to share their thoughts on the state of democracy around the 
world in the wake of the initial COVID-19 shock. Not surprisingly, many 
of their concerns and recommendations centered on China and what the 
U.S. should do to shore up democratic principles globally. As one of 
the organizations recommended, the PRC must be held to account for 
hiding data, silencing internal critics, and engaging in a 
disinformation campaign. The other organization suggested creating 
programs to promote transparency by aggressively supporting local 
independent media, citizen bloggers, and watchdog groups to identify 
CCP propaganda and disinformation. While these organizations 
represented different U.S. political views, their commitment to 
supporting American policies that counter the PRC's growing 
disinformation and propaganda efforts were remarkably like-minded. The 
Department and USAID are doubling support for American and local NGOs 
to strengthen the voice of civil society and independent media, demand 
transparency and accountability, and combat disinformation.
    The business community remains a lynchpin of an effective U.S.-
China policy. We are consulting with U.S. business and taking a range 
of actions designed to right the distorted economic relationship that 
has deteriorated over time. While so-called ``decoupling'' of the 
relationship is a false choice, there is much room to demand fairness 
from China, to diversify supply chains, and protect sensitive 
industries. On July 1, Secretary Pompeo announced the Xinjiang Supply 
Chain Business Advisory, which highlights the risks for businesses with 
supply chain links to entities complicit in forced labor and other 
human rights abuses in Xinjiang and throughout China. The Phase One 
trade agreement with Beijing aims to resolve some of our longstanding 
and significant structural concerns related to agriculture, technology 
transfer, intellectual property, financial services, and currency and 
foreign exchange, while also committing China to make significant new 
purchases of U.S. exports. It also includes an unprecedented 
enforcement mechanism. It does not resolve all of our key concerns with 
the PRC's non-market economic system, including state industrial 
policies, excess capacity, and unfair subsidies that harm both the U.S. 
and global economies. Tariffs on $370 billion in Chinese products will 
remain in place as we pursue resolution of outstanding issues in a 
second phase of negotiations.
          building and strengthening international cooperation
    At the Department of State, our China strategy is not just the work 
of a single office or bureau, but rather part of a comprehensive 
approach across the Department and our embassies and consulates around 
the world. The United States is working with governments to create a 
common understanding of the PRC's actions, to build a unified response, 
and to shape a long-term approach. This foundation is key to the 
growing recognition of Chinese actions that undermine global 
institutions and shared values; manipulate international organizations 
and silence of critics abroad; surreptitiously acquire high technology 
to further its military and economic ambitions; and spread of 
disinformation.
    Our dialogue and engagements take many forms, but all benefit from 
the fact that many states are waking up to the reality that economic 
opportunity with China over the past decades has come at significant 
cost and risk.
    The Indo-Pacific is our primary region of competition with the PRC. 
Across the region, the United States is deepening relationships with 
the countries that share our values. In September 2019, the first 
ministerial-level meeting of the United States, Australia, India, and 
Japan at the Quadrilateral Consultations marked a new milestone in our 
diplomatic engagement in the region. Our alliances with Australia, 
Japan, the Republic of Korea, the Philippines, and Thailand have helped 
sustain peace and security for generations. ASEAN is central to our 
vision for a free and open Indo-Pacific region. Our security assistance 
to South China Sea claimant states helps partners protect their 
autonomy and maritime resources. Together with USAID, we are working 
with the Mekong countries to ensure sustainable development and energy 
security, even as the PRC continues its extensive dam building and 
threatens the food security of its downstream neighbors along the 
Mekong River. The United States doubled development assistance to our 
Pacific Island partners through Pacific Pledge.
    On June 25, the Secretary announced the United States has accepted 
EU High Representative Josep Borrell's proposal to create a U.S.-EU 
Dialogue on China--a new mechanism for discussing the Transatlantic 
community's common concerns about the threat the PRC poses to our 
shared democratic ideals. We anticipate it will be action-oriented and 
lead to more coordinated policy outcomes that will advance our shared 
interests. The United States is engaged with allies and partners in the 
G7, the G20, and NATO, and we are broadening partnerships across the 
Transatlantic, the Indo-Pacific, the Middle East, Africa, and the 
Western Hemisphere. Similarly, China is a core component of our 
security dialogues with the United Kingdom, Australia, New Zealand, and 
Canada.
    Beijing's growing assertiveness also shows in its military actions, 
and we are collaborating with countries around the world to deter 
Chinese military expansion. Beginning in May 2020, new PLA incursions 
along the Line of Actual Control (LAC) in Ladakh led to fatal clashes 
between India and China. Beijing's actions along the LAC are part of a 
broader, disturbing trend of aggressive PRC behavior throughout Asia. 
We are working with India on increasing information sharing and 
bilateral defense cooperation, including through rapid completion of 
the Basic Exchange and Cooperation Agreement on geo-spatial information 
sharing. Our governments share a vision for a free and open Indo-
Pacific, offering security and prosperity for all.
    In our own Hemisphere, the United States is working with its 
neighbors to reaffirm the region's longstanding dedication to free 
societies and free markets. We are working with like-minded democratic 
partners to strengthen governance that is inclusive, responsive, and 
transparent; generate prosperity and economic development; and ensure 
respect for human rights--the values that define our hemisphere. In 
December 2019, the White House launched an expanded initiative called 
Growth in the Americas. This whole of government initiative aims to 
catalyze the private sector as the primary engine of growth to develop 
infrastructure in Latin America and the Caribbean. The focus is on 
improving the attractiveness of the investment climate for all types of 
infrastructure including energy, airports, ports, roads, telecom, and 
digital networks, among others. The U.S. International Development 
Finance Corporation (DFC) is a critical tool in these efforts. We 
expect the DFC to deploy at least $12 billion in financing in the 
region. We are also expanding the Digital Connectivity and 
Cybersecurity Partnership to the region, modeled on the work it has 
already done in the Indo-Pacific.
    China has made extensive inroads across Africa over the past 
decade. However, this does not mean that African leaders are oblivious 
to the risks of partnering with the PRC. Some African governments have 
instituted review panels to monitor Chinese projects while others are 
requiring Chinese firms to hire more African laborers and provide 
protections for Africa's fragile ecosystems.
    In the Middle East we similarly continue to engage countries to 
recognize the costs that come with certain engagements with China--
costs to their own sovereignty, costs to regional stability, and costs 
to the rule-based international order that has provided security and 
prosperity for decades. A few recent decisions reflect this growing 
consensus. In Oman, Ericsson signed a Letter of Award with Vodafone 
Oman on May 21 to be its sole operator for Oman's radio, cloud, and 
core networks, reversing an earlier decision to award the contract to 
Huawei. Kuwait's recent reversal of its decision to award a Kuwaiti 
National Guard network infrastructure contract to Huawei is a first 
step despite Huawei's continued key role in Kuwait's commercial 
network. Israel's June 15 decision to bar Huawei from its 5G network is 
also welcome, as is Israel's decision to award a $1.5 billion tender 
for a water desalinization plant to Israeli firm IDE Technologies on 
May 26, instead of Chinese firm CK Hutchison Holdings.
    We are also working with allies and partners to prevent the PRC's 
growing influence in international organizations. U.S. efforts to 
counter the PRC's moves to assume controlling positions to advance its 
parochial interests in these multilateral fora have accelerated over 
the past several years. Our efforts have included close cooperation 
with allies and partners around the world in the World Intellectual 
Property Organization's leadership election and shared interests in 
rejecting Beijing's efforts to insert language promoting the PRC's 
foreign policy and its core communist ideology into U.N. documents. The 
United States will also continue to pursue reforms that promote good 
governance, accountability, and transparency, which have the added 
benefit of making the U.N. more resilient to the PRC's malign 
influence.
    Finally, let me highlight the importance of Taiwan, an example of 
freedom and democracy for all Chinese people and the world. On May 20, 
Secretary Pompeo sent an official congratulatory message for Taiwan 
President Tsai's inauguration. We and our allies and partners will 
continue to vigorously support Taiwan's meaningful participation in 
international organizations, especially where public health, safety, 
and security are concerned. Taiwan's commendable COVID-19 response 
demonstrates it has much to offer to the global community. On July 9, 
the Administration formally notified Congress of a defense arms sale to 
Taiwan. The sale, worth an estimated $620 million, is for the 
recertification of Taiwan's existing Patriot Advanced Capability-3 
(PAC-3) Missile capability. This is just one recent example of how, 
consistent with the Taiwan Relations Act (TRA), we will continue to 
provide Taiwan defense articles and services to enable Taiwan to 
maintain a sufficient self-defense capability. The U.S. commitment to 
implementing the Taiwan Relations Act is firm, as is our commitment to 
the U.S. One China policy, including our insistence that cross-Straight 
issues be resolved peacefully and without coercion or intimidation.
                   finding common ground where we can
    Even as we build a unity of action and purpose here at home and 
with our allies and partners to push back firmly and consistently 
against challenges from China, we also seek to maintain communications 
with Beijing and welcome PRC cooperation where we can find common 
ground. Chairman Risch, your legislation calls for a prioritization of 
cooperation and that is welcome guidance that remains the central 
pillar of the U.S. approach to China.
    The United States has publicly welcomed Beijing to engage in arms 
control negotiations. It is time for dialogue and diplomacy between the 
three biggest nuclear weapons powers on how to prevent a new arms race. 
As such, the next prudent step is face-to-face meetings between the 
United States and China. Special Presidential Envoy for Arms Control 
Marshall Billingslea has invited the PRC to join in good faith 
negotiations in Vienna. The United States also recommends that China 
meet with Russia at an early date to consider next steps for trilateral 
arms control negotiations. While we will all bring different 
perspectives and objectives to the negotiating table and will surely 
have disagreements, we believe this strategic dialogue is essential, as 
the consequences of a miscommunication between the three major nuclear 
powers would be catastrophic for humanity.
    One issue that can be a continued area of cooperation between the 
United States and China is North Korea. North Korea's weapons of mass 
destruction and ballistic missile programs undermine our shared 
strategic interest in peace and stability on the Korean Peninsula. 
China agrees that diplomacy is the preferred approach to resolving the 
issue of North Korea's denuclearization. While there is much more China 
could do to enforce binding sanctions and prevent sanctions evasion--
and we will continue to engage the Chinese on that issue--China has 
also drastically reduced trade with North Korea and has made efforts to 
urge North Korea to engage with the United States on a diplomatic 
process to bring peace and prosperity to all who live on the Korean 
Peninsula.
    We also seek common ground with Beijing in our efforts to combat 
the opioid crisis here in the United States. The United States welcomed 
the PRC's regulatory action in 2019 to class schedule all fentanyl-
related substances. This action, combined with heightened U.S. 
regulatory and enforcement efforts, has decreased the amount of 
fentanyl and fentanyl analogues coming directly from China into the 
United States. The PRC's November 2019 prosecution of an international 
fentanyl trafficking ring, after a joint U.S.-China investigation, was 
another positive step. However, our job is far from complete. 
Significant amounts of chemical precursors used to produce illicit 
synthetic opioids and methamphetamine that kill Americans continue to 
originate in China. Since the PRC's class scheduling of all fentanyl-
related substances, there have been several shipments of illicit 
synthetic drug precursors from China to cartel-controlled entities in 
Mexico, indicating a pronounced shift in how fentanyl is trafficked 
from China into the United States. Cooperation to address emerging 
aspects of the problem, including more strict regulation of China's 
chemical and pharmaceutical industries, will mark the next phase of 
bilateral and multilateral effort. President Trump is unequivocal on 
the need for China to take a more proactive role in disrupting the flow 
of illicit fentanyl trafficked globally--even as the PRC's role in the 
problem has evolved.
   building ties with civil society and supporting the chinese people
    The United Nation's Universal Declaration of Human Rights 
guarantees everyone the right to freedom of thought, conscience and 
religion, of opinion and expression, and of peaceful assembly and 
association. Unfortunately, today no Chinese citizen is able to 
practice religious beliefs freely, speak opinions freely, or peacefully 
seek changes from the government. Secretary Pompeo has prioritized 
support for representatives of the Chinese people seeking freedom and 
democracy by meeting with Chinese dissidents from the generations of 
the 1979 Chinese Democracy Wall movement, the 1989 Tiananmen Square 
protests, and the 2019 Hong Kong pro-democracy movement. He has also 
met the survivors of repression in Xinjiang and the Tiananmen Massacre.
    Despite the obstacles, American diplomats continue to meet and 
engage with a broad cross-section of the Chinese population through a 
variety of programs, both in U.S. diplomatic facilities and outside 
them. Last month, I was honored to present the honorary Women of 
Courage Award to the Mothers of Tiananmen. On June 4, 1989, thousands 
of brave Chinese citizens gathered in Beijing's Tiananmen Square, 
calling for freedom, democracy, human rights, and a corruption-free 
society. Their peaceful calls for change came to a violent end when the 
Chinese Communist Party sent the People's Liberation Army into 
Tiananmen Square armed with tanks and guns. Thirty-one years later, the 
United States continues to honor the Tiananmen pro-democracy movement 
and its legacy of peaceful advocacy. The bravery of the many Chinese 
people who seek to advance the cause of human rights and universal 
freedoms inspires us.
    The United States remains committed to active support for the 
Chinese people. To raise awareness of human rights abuses in China, the 
United States regularly holds public events highlighting the abuses 
committed by the PRC and the bravery of human rights defenders. For 
example, the President chaired a global call to action on protecting 
international religious freedom at the 74th U.N. General Assembly; the 
past two Ministerials to Advance Religious Freedom have shone a 
spotlight on egregious conditions in China; a side-event at the U.N. 
General Assembly drew attention to abuses in Xinjiang; and a survivor 
of the detention camps in Xinjiang was recognized as an International 
Woman of Courage.
                               conclusion
    Mr. Chairman, consistent with the priorities in your legislation, I 
should underline that engagement between the United States and China 
remains of central importance in managing tensions and exploring areas 
of mutual interest where efforts might align or cooperation might 
flourish. But we will only make a difference if our engagement produces 
real progress on the many issues of concern which I have enumerated 
today.
    Current trends in U.S.-China relations do not seem promising. Many 
Chinese officials continue to be trapped in a mindset that shapes its 
narrative of China as victim at the hands of foreign powers, thus 
requiring China's hardline actions in response. This despite decades of 
efforts by the United States and our allies to bring China into the 
global community. Through trade and participation in the World Trade 
Organization and through increased engagement, we have sought to smooth 
China's rise in the global system. Unfortunately, while some in China 
wanted to be seen as a responsible great power, the realities of 
China's rise are not that of responsible global leadership.
    Last month, I joined Secretary Pompeo in Hawaii to meet with our 
Chinese counterparts. In the 2-day discussion the Secretary stressed 
that deeds, not words, were the pathway to achieve mutual respect and 
reciprocity between our two countries across commercial, security, 
diplomatic and people-to-people interactions. He made clear our 
determination to push back against Beijing's efforts to undermine 
democratic norms, challenge the sovereignty of our friends and allies, 
and engage in unfair trade practices, but at the same time, he outlined 
the areas where the United States and the PRC could cooperate to solve 
global challenges, including those I have enumerated today.
    We would also welcome members of Congress from both sides of the 
Capitol to not only work in partnership with the Executive Branch but 
to also extend your own engagement to better understand aspirations of 
the Chinese people. Of course this includes meeting with your Chinese 
government counterparts and other officials, but as much as possible it 
must also include reaching out to the many voices of China that are 
found outside China; those not free to be heard at home and therefore 
requiring our assistance to be heard.
    Beyond government-to-government interactions, the United States 
also maintains the goal of expanded trade and investment with China 
provided it is conducted on a fair and reciprocal basis. We welcome 
people-to-people exchanges, including hosting of each other's students, 
provided that they are exclusively for purposes of study. As we seek to 
correct the imbalance in our relations with China we must address 
today's realities while at the same time leaving open tomorrow's 
possibilities.
    The United States is urgently taking the necessary steps to defend 
tour security and long-term economic well-being. With our friends and 
allies we are standing up for universal rights and the rules-based 
international system that have provided for the world's collective 
peace, security, and prosperity for generations. This is the foundation 
for the peace and stability that has allowed the United States, the 
People's Republic of China, and the world to advance toward ever 
greater peace and prosperity.

    The Chairman. Thank you.
    With that, we are going to do a round of questioning. I am 
going to reserve my time. Senator Menendez, I will turn it over 
to you for a round of questioning.
    Senator Menendez. Thank you, Mr. Chairman.
    As I said earlier, I welcome the Administration's 
clarification of our legal position on China's unlawful claims 
in the South China Sea. But as you know, international law is 
not self-enforcing. And having now taken this position, it is 
critical that we give reality to our legal position or we may 
find that a gap between rhetoric and reality produces 
counterproductive and destabilizing.
    So what does the Administration intend to do to implement 
this new approach?
    Mr. Biegun. Thank you, Senator Menendez.
    So as you are aware, the United States had for some time 
rejected Chinese claims without endorsing alternative claimant 
positions, but in the recent iteration, Secretary of State 
Pompeo at the direction of President Trump has declared the 
United States to not recognize Chinese declarations, and in 
fact, we would seek to uphold the rulings of international 
tribunals that have determined that China's maritime claims in 
the South China Sea are improper.
    You know, I harken back to 2015 when President Xi Jinping, 
standing at the White House with President Obama, announced 
that China had no intention to militarize the South China Sea. 
Just recently I typed into the search engine on my computer the 
words ``Chinese bases, South China Sea'' and looked at the 
images of what has grown up in the South China Sea in the 
corresponding 5 years. It is an astonishing military buildup 
that China has undertaken, and China is currently in the midst 
of major military exercises in the region as well. They have 
completely militarized the South China Sea.
    For our part, sir, we will continue our freedom of 
navigation operations, which are continuing on an ongoing 
basis. We are providing assistance, including security 
assistance, to many of our friends and allies in the region. We 
are making this a subject of discussion in our alliance 
relationships in the region, not just the South China Sea I 
might add, but the East Sea as well where there are also 
Chinese claims on the territory of other countries. We are 
providing substantial security assistance to many of our 
partners in the region, and we are working very hard to find a 
common position with our friends and allies in the region, most 
recently successfully overcoming some of the differences we had 
with the Government of the Philippines in order to reach common 
cause with the Philippines as well as with many other countries 
in ASEAN to push back decisively against Chinese claims.
    Senator Menendez. All right. Thank you very much.
    So I am looking forward to hearing further discussion of 
what are the consultations you had with partners and allies on 
their statements and actions. You just mentioned the 
Philippines is one of them.
    As you know, Mr. Secretary, the Chinese Communist Party's 
(CCP) so-called national security law for Hong Kong, which 
undermines Hong Kong's autonomy, encourages the crackdown on 
pro-democracy protesters and effectively ends its one country, 
two systems policy, recently went into effect. Along with my 
colleagues on both sides of this dais, I introduced the Hong 
Kong Safe Harbor Act, which would provide those Hong Kongers 
who peacefully protested Beijing's corrupt justice system and 
could have a well founded fear of persecution to be eligible 
for priority to refugee status.
    What efforts other than some harsh words and criticism 
aimed at the CCP for their erosion of Hong Kong's autonomy is 
the State Department actively pursuing?
    Mr. Biegun. So, Senator Menendez, as you are probably 
aware, we have used the existing authorities we have in the 
Department of State under the Immigration and Naturalization 
Act to impose visa restrictions against some of the leading 
actors who have played a role in imposing the National Security 
Act upon the people of Hong Kong in order to strip them of 
their democracy.
    Likewise, we have suspended the extradition treaty that we 
had with Hong Kong in recognition of the fact that the rule of 
law is unlikely to be found any further under the legislative 
authorities that the Chinese put in place.
    We are comprehensively reviewing benefits that are extended 
to the region of Hong Kong to assess whether or not those 
should be continued. They are not in a single place in law. 
They are sprinkled across U.S. code, and we are taking a 
comprehensive look at all those benefits as we go forward.
    And finally, as you may know, the President has also 
extended refugee quota to any travelers coming out of Hong Kong 
who are fleeing the repression there.
    The Secretary had a chance himself to meet with Joshua Wong 
in London just yesterday where he had a good discussion about 
the current state of affairs in Hong Kong, and we will continue 
to press very hard in order to preserve the democratic voice of 
the people of Hong Kong.
    Senator Menendez. Well, I hope the refugee status that the 
legislation that we have bipartisan support for is something 
the Administration will support.
    A final question. We have seen authoritarian nations such 
as China and Russia utilizing emerging technologies in new ways 
to surveil and repress both domestic and foreign populations, 
as well as manipulate democratic elections. Now these countries 
are spreading their models of digital authoritarianism to other 
countries who may be attracted to these new modes of social 
control.
    What is the Administration's strategy to counter the spread 
of digital authoritarianism and the malign use of digital 
products and services? And how are we engaging our allies in 
that context?
    Mr. Biegun. The same technologies that are being used to 
repress populations are also used in many countries in the 
world in order to conduct routine screening and security. And 
so it is a very thorny and complicated issue to sort out the 
use issues.
    One of the first and positive steps we have taken is in 
relation to Xinjiang where Chinese companies who have, in fact, 
provided those tools to the Communist Party in order to be used 
to enforce the Chinese repression against the Uyghurs are now 
sanctioned under U.S. law and unable to do business with the 
United States or with United States companies. We will continue 
to extend that kind of protections when we see these 
technologies used for repressive purposes, but it is an 
important and worrisome area of technology and one of many that 
we are having to grapple with in the world in which social 
media, telecom, and new technologies challenge freedoms around 
the world.
    The Chairman. Thank you.
    Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman.
    And thank you, Secretary Biegun.
    Since 2015, I have had the privilege of serving as the 
chairman of the Senate Foreign Relations Committee Subcommittee 
on East Asia, the Pacific, and International Cybersecurity 
Policy, where Senator Markey and I have led efforts to shape a 
new policy toward the Indo-Pacific region, including through 
the passage of the landmark Asia Reassurance Initiative Act 
(ARIA) in December of 2018.
    As part of our work in the 115th Congress, the East Asia, 
Pacific Subcommittee also held a three-part series of hearings 
titled ``The China Challenge,'' which examined in a 
comprehensive manner how the United States should respond to a 
rising China that seeks to upend and no doubt supplant the 
U.S.-led liberal world order in their minds. Our first two 
hearings focused on security and economic aspects of China's 
authoritarian rise, including China's debt trap diplomacy and 
military modernization programs. Our third hearing focused on 
democracy, human rights, and rule of law, values that have been 
fundamental to the conduct of U.S. foreign policy for 
generations.
    Our witnesses testified that we were in the midst of the 
so-called authoritarian closing that under President Xi Jinping 
has resulted in an unprecedented and intensifying crackdown on 
civil society, ethnic minorities, and religious freedom in 
China. We found that the mass concentration camps for Uyghur 
Muslims in the Xinjiang Uyghur Autonomous Region shocks the 
conscience and necessitates a serious response from the United 
States and the international community, including sanctions 
against top officials.
    We found that the crackdowns in the Tibet Autonomous Region 
are intensifying while Beijing continues to refuse negotiations 
with the Central Tibetan Administration.
    We found that human rights defenders in China are routinely 
jailed, tortured, and otherwise deprived of liberty.
    We found that genuine freedom of speech and assembly are 
nonexistent, that corruption and abuse of power are rampant. 
Just look at Hong Kong and the violations of international 
agreements registered with the United Nations and the lengths 
that the Communist Party in China will go to deprive its people 
of what China itself not too long ago had agreed to.
    And now in the midst of the unprecedented outbreak of 
COVID-19 coronavirus, the Communist Party of China continues to 
hide and obscure critical information that has imperiled a 
truly global response to the crisis.
    This is the China that we must deal with not just now but 
for the long run as well.
    I look forward to hearing from Deputy Secretary Biegun 
today on how we can best address the China challenge together 
in a series of questions.
    I want to talk about the Asia Reassurance Initiative Act 
and what it means to the framework as you identify in your 
opening statement, but just a few quick questions.
    Is China torturing the Uyghur Muslim population in China?
    Mr. Biegun. I am sorry, Senator. Could you repeat the 
question?
    Senator Gardner. Is China torturing Uyghur Muslims in 
China?
    Mr. Biegun. We certainly believe that there is a severe 
mistreatment. In fact, we and many other countries are 
demanding access to Xinjiang and----
    Senator Gardner. You are not willing to say whether or not 
they are torturing?
    Mr. Biegun. Torture is a legal definition, and I do not 
simply have the evidence available to me to make that statement 
as a legal matter. I do believe they are severely mistreating 
those people and----
    Senator Gardner. And you would agree there have been public 
reports that Uyghur populations have been tortured.
    Mr. Biegun. I certainly find it believable, sir.
    Senator Gardner. Is China disappearing scientists and 
dissidents, scientists dealing with the coronavirus, dissidents 
speaking out against Chinese repression?
    Mr. Biegun. China has been arresting dissenting voices for 
my entire career, but in recent months, we have seen in 
particular this focus has turned against those who spoke up 
particularly early on regarding the COVID virus in Wuhan. 
Absolutely.
    Senator Gardner. Is China stealing U.S. coronavirus 
research?
    Mr. Biegun. As the Department of Justice unveiled in two of 
its indictments yesterday, we have firm evidence to suggest 
that Chinese hackers, working in close association with Chinese 
national security institutions, have in fact been trying to 
steal information related to the development of technologies to 
treat the coronavirus.
    Senator Gardner. Is China breaking the Rose Garden promise 
of no militarization of the South China Sea?
    Mr. Biegun. As I mentioned in my earlier comments, one only 
needs to type into your search engine on your computer ``South 
China Sea military bases,'' and you will see how substantial 
China has broken the pledge that President Xi Jinping made to 
President Obama.
    Senator Gardner. Is China persecuting other religious 
minorities like Christians?
    Mr. Biegun. Absolutely.
    Senator Gardner. Is China breaking international agreements 
in Hong Kong?
    Mr. Biegun. They have broken their international agreement 
in Hong Kong.
    Senator Gardner. This obviously is something that must be 
dealt with swiftly, strongly, and not just by the United 
States, but global condemnation and actions subsequent to that 
condemnation that will show China and the Communist Party of 
China that their actions are unacceptable if they wish to be 
deemed or seen as a responsible nation.
    The Asia Reassurance Initiative Act, which passed in 2018, 
sets a framework. In your testimony, you state that the Asia 
Reassurance Initiative Act is a framework for U.S. leadership 
in the Indo-Pacific. It is based on the National Defense 
Strategy, National Security Strategy.
    Just out of curiosity, how can we use ARIA, that framework, 
to address the challenges and the consequences of the actions 
China has taken as it relates to the questions you just 
answered?
    Mr. Biegun. Similar to what we welcome in Chairman Risch's 
legislation, laying out a strategic framework and knowing that 
it is creating a space for us to make proposals here to Capitol 
Hill on budgets and priorities is very helpful. The authorizing 
committees do play an important role in telegraphing to the 
entire Department set of professionals the space that we can 
move into as we go annually through our budgets and staffing 
issues. Your legislation, which has already been in place for 
several years, was very useful in that regard. We have seen a 
complete reorientation of U.S. foreign policy towards the Asia-
Pacific, consistent and even in some ways through the openings 
that were suggested in the ARIA legislation. The more focused 
efforts on China are going to likewise need close congressional 
and executive cooperation, Senator. And I want to thank you and 
members of the committee for a number of pieces of legislation 
that I highlight in my written testimony that have come out in 
recent years.
    Senator Risch, if I may also for a moment. I misspoke a 
moment ago. It was not Joshua Wong that the Secretary met with. 
It was another brave democracy activist named Nathan Law that 
he met with in London yesterday, and I just wanted to correct 
that for the record.
    Senator Gardner. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Gardner.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    Secretary Biegun, thank you for your service. We appreciate 
it very much.
    There is a common theme from all of us. We get 5 minutes 
and we cannot list all of our concerns about China in 5 
minutes. There are so many issues of major concern.
    But I want to follow up on Senator Gardner's point that we 
need a global response, at least a regional response. The Trump 
administration--one of the first policies it initiated was to 
pull out of the TPP, Trans-Pacific Partnership, which was a 
trading bloc that was to stand up in some respects against the 
economic power of China on a regional basis.
    The President then initiated trade policy talks with China 
that were unilateral with the United States and China, not 
engaging our other trading partners. And as those discussions 
have taken place, it is becoming a concern to many of our 
trading partners that the United States is looking for an 
agreement where they can point to some progress on specific 
commodities rather than dealing with the fundamental problems 
of the Chinese economy, the fact that it is government 
controlled, that it steals our intellectual property, that it 
manipulates currency, that there is government control, and the 
list goes on and on and on.
    So can you share with us what steps you are taking to 
develop a regional approach so that we have support from other 
countries to deal with the malignant activities of China?
    Mr. Biegun. Yes. Thank you, Senator Cardin.
    The United States is collaborating very closely with 
countries in the Indo-Pacific for a regional approach and 
globally. As I mentioned in my testimony, we have initiatives 
that have been launched in every continent of the world, even 
in the Arctic. The United States is actively advancing a 
strategy to pursue our interests. Secretary Pompeo today is in 
Denmark meeting with our allies there to discuss those very 
issues.
    Specifically in relation to the Indo-Pacific, we are 
working very closely with our ASEAN partners. We have launched 
a robust cooperation in the Indo-Pacific Quad with India, 
Japan, the United States, and Australia.
    Senator Cardin. Explain to me what the focus of that 
partnership is as it relates to China. What strategic actions 
are we planning as a regional approach to counter China?
    Mr. Biegun. We undertake military exercises together. We 
train for worst case scenarios and include deterrence in the 
suite of our strategies. We collaborate very closely on 
combating disinformation campaigns out of China. In fact, we 
have a regular coordinating discussion between me and my Indo-
Pacific counterparts. We started, in the early stages of the 
COVID crisis, a weekly conference call with deputy-level 
officials in the foreign ministries of six other Indo-Pacific 
countries, along with the United States all towards both 
sharing best information on the challenges posed by China and 
providing support for efforts to comprehensively combat it.
    Of course, our Five Eyes intelligence coordination is a key 
part of this, along with our military alliances.
    We are every day, Senator, working in close cooperation 
with allies in the Indo-Pacific. And the central issue that all 
of them are considering in that relationship is China.
    Senator Cardin. Let me sort of challenge that and ask that 
you keep us informed on it because I hear messages coming out 
from the White House, but it does not seem to be coordinated 
with any of the other countries that are allied with us in that 
region.
    The One Road, One Belt policy of China is aimed at 
exercising its economic power globally.
    Senator Menendez talked about Hong Kong and our major 
concern in Hong Kong are the rights and freedom of the people 
of Hong Kong. And it is very clear to many of us that China has 
violated that agreement, and the special status that we give 
that territory should be reviewed and seriously consider 
eliminating their special status.
    One of the reasons why Hong Kong was given that status was 
not just to respect the human rights of the people that live 
there, but to develop a more market economy in that region, 
which was the hallmark of Hong Kong.
    Are we now in jeopardy of seeing Chinese influence, as is 
shown in Hong Kong, to try to dominate with government-
controlled economies rather than allowing more market-driven 
economies?
    Mr. Biegun. I would say that most of China's economic 
policies are in fact incompatible with a rules-based market 
economy. There are some dimensions of the market that one can 
find in the Chinese economy and in other countries where China 
operates. The essential factor that made Hong Kong distinct 
from the remainder of China is the economy was governed under 
the rule of law with an independent court system in which fair 
justice could be applied. The two have to move hand in hand 
together.
    China is dismantling the democratic government and 
eliminating the rule of law in Hong Kong in manner that not 
only is eliciting a reaction from the United States and, by the 
way, many other countries around the world, but it is actually 
eliciting a reaction from many of the investors and businesses 
that chose to operate in Hong Kong as well. They are there 
because of the rule of law. They are there because of 
democratic governance, and the absence of that is going to do 
more damage to the fabric of Hong Kong's economy than any 
sanctions that we could conceive of.
    Senator Cardin. And I would suggest, just in closing, that 
there is an area where the U.S. in leadership working with 
countries of like mind should have a common response to what is 
being done by China in Hong Kong, a very definitive, strong 
response. That is where I think the U.S. would show its 
leadership and effectiveness in dealing with what China is 
doing.
    Mr. Biegun. So in the near term, Senator, under the 
presidency of the United States, the G-7 has released a 
coordinated statement on exactly that.
    Senator Cardin. A statement or action?
    Mr. Biegun. Well, the G-7 statement is a commitment to 
action.
    But what we are doing in the State Department is outlined 
in more detail in my written testimony. I will not go into 
significant detail, but the economic policy network that we are 
coordinating with many of our Indo-Pacific allies is intended 
to address these issues across the region in exactly the manner 
that you are describing.
    Senator Cardin. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cardin.
    Senator Young.
    Senator Young. Mr. Biegun, welcome to the committee.
    China has combined taking advantage of a mercantilist 
economic approach, sometimes predatory economic policies, a 
strong position in a growing level of influence within 
development banks and international regulatory organizations 
with its Made in China 2025 initiative to create what seems to 
be a pretty potent economic statecraft arsenal. This is going 
to have long-term consequences for many countries around the 
world, but especially the United States as it relates to our 
relationship to allies and partners, as it relates to our own 
economic policies, our own good faith development efforts, and 
the future of American innovation and expertise. So it is 
really impacting so much of our own foreign and domestic 
policy.
    Having laid that foundation, how is the Department of State 
thinking about the issue of decoupling with China?
    Mr. Biegun. So our goal with China is not decoupling. Our 
goal is to present a set of pressures on China that has not 
lived up to the expectations that the world laid out two 
decades ago when China was welcomed into the World Trade 
Organization (WTO) and the years since when they were welcomed 
into full partnership with many countries around the world in 
economic relations. That is, that China becomes a net 
contributor and a responsible stakeholder in upholding global 
rule of law and institutions. China's efforts have been by 
design aimed at dismantling that consensus in a manner that has 
created huge imbalances in the global economy and has led to a 
number of predatory behaviors as you describe.
    I would not say that it is to our advantage to decouple 
from the Chinese economy, and that is not our specific policy 
goal. Our goal is to see China resume a full commitment to the 
path that they were on 20 years ago when they were trusted by 
the global community.
    Senator Young. Understood. I regret I have some follow-up 
questions and I have 3 minutes left.
    Mr. Biegun. I am sorry.
    Senator Young. No. That is fine, sir.
    So just very briefly, you mentioned China's entry into the 
WTO. Is it pretty clear to you and to the State Department 
generally that China has not followed the commitments, either 
the letter or the spirit of the law as it relates to their 
commitments, as a WTO member nation?
    Mr. Biegun. China severely abused its membership in the 
WTO, and more importantly, it missed an important moment to 
pivot in the Doha development round when it could have been an 
advocate for improving and strengthening the global trading 
system. It is to all of our detriment that they chose to take 
that role, but they did it to preserve the singular benefit 
that they derived from entering the WTO as a poor country, 
despite the fact that they are now one of the two largest 
economies in the world.
    Senator Young. Do you and should we envision a future in 
which countries are forced to choose between an alliance, or a 
strong partnership, with China on one hand or with an American-
led system on the other?
    Mr. Biegun. That is not our intention, nor are we going to 
apply that litmus test to our relations with other countries. 
What we are going to do is seek to educate them on the 
challenges that come from an economic relationship with China 
and suggest and coordinate with them prudent steps in order to 
limit China's ability to disrupt the technology, privacy, or 
safety of their own citizens.
    Senator Young. Would it give the United States more 
leverage if our government invested in large-scale innovation 
efforts to ensure American leadership in key technologies, 
perhaps partnering with our allies and strong and trusted 
partners?
    Mr. Biegun. Senator, I know that you are one of the several 
members of this committee who have worked with our Economic and 
Business Affairs Bureau on the global economic security 
strategy that is designed to do just that. We cannot be strong 
abroad if we are not strong at home, and we have to design our 
own strategies within our economic traditions within the free 
market to allow our innovators and our companies to produce the 
best and most competitive outcomes.
    I am confident we can do that. That has been one of the 
enduring strengths of the United States of America. We just 
have to recognize that we are doing it in an environment now 
where we have a near-peer competitor that is seeking to 
undermine the very ecosystem in which that economic progress 
was made.
    Senator Young. Thank you.
    With 30 seconds left, in summary fashion can you assess for 
me Xi Jinping's current standing within the Chinese Communist 
Party?
    Mr. Biegun. In taking power, one of the first things he did 
using an anticorruption initiative was to eliminate nearly all 
competitors inside the party. While I do not know the bona 
fides of those individuals or whether they were in fact 
involved in corruption. I can say that the selective 
prosecution of those individuals eliminated all significant 
political challenges. And I think he has a strong hold on power 
in China.
    More worrisome to us is the decision of the Chinese 
leadership also to dissolve a customary two-term limit on 
Chinese leaders which now leaves them potentially with a leader 
for life, which is problematic for any system. That means that 
any challenge to the decisions of the government is an 
existential threat to the leadership because of the absence of 
turnover, because of the absence of elections, and because of 
the absence of a rotation at the top level of Chinese 
leadership. I am afraid many of the behaviors that we have seen 
can be directly attributed to that factor.
    Senator Young. So you have just identified an interesting 
paradox which we see play out again around the world and 
throughout history, which is if you eliminate opposing forces, 
those competitive power centers within your government, in a 
way that makes you stronger but also makes you far more 
vulnerable to blowbacks.
    Mr. Biegun. There is a reason why democracy has served this 
nation so well for the last 240 years.
    Senator Young. Yes. Thank you, sir.
    The Chairman. Thank you, Senator Young.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And, Secretary Biegun, thank you for being here.
    As you know, China's Belt and Road Initiative has allowed 
the Chinese to take a controlling stake in 13 European ports. 
Last year, we had a hearing before the Armed Services Committee 
where Admiral Davidson, Commander of U.S. Indo-Pacific command, 
testified that Sri Lanka, Malaysia, and the Maldives have all 
handed over control of their ports or territory to China. We 
know that 40 out of 55 African countries have gotten financing 
through the Belt and Road Initiative. More than 130 countries 
around the world.
    So given the clear benefits, advantages that China is 
taking through that initiative and the challenge that that 
presents to the United States, help me understand the 
Administration's logic in cutting U.S. diplomacy and 
development funding for 3 consecutive years.
    Mr. Biegun. Thank you, Senator.
    The most important tools that we have to use against that 
are a combination of the resources provided to the 
International Development Finance Corporation paired with the 
strong U.S. international business community that is more than 
prepared to seek business opportunities in every corner of the 
world.
    What we have tried to do in order to address the specific 
challenge to the Belt and Road Initiative is work on both ends 
of the equation. So not only are we seeking to provide more 
infrastructure support and assistance and facilitate through 
the active cooperation of our embassies, which now maintain 
what we call deal teams which bring together the interagency 
components of U.S. commercial diplomacy in order to support 
American companies competing with Chinese companies, but also 
on the other end of the equation, we have created a program 
called the Blue Dot Network, which is basically a Good 
Housekeeping Seal of Approval on major global infrastructure 
projects to make sure that they are done in a transparent and 
noncorrupt manner, that they are done with appropriate economy, 
and also that they are not financed in a manner that makes the 
recipient of the project fall into debt trap diplomacy, which 
China has used in several of the countries that you identified.
    Senator Shaheen. I certainly agree with that, but is it 
your contention that our efforts are as effective in terms of 
getting support from other countries, particularly in Africa 
and Asia, as the Chinese efforts?
    Mr. Biegun. As I highlighted in my testimony and as we have 
seen in recent months, there has been quite a backlash against 
China's debt trap diplomacy. In fact, the United States and 
many other countries in the G-20 have strongly advocated debt 
relief at this point in order to help many of these countries 
that are severely impacted by the COVID-19 crisis. The Chinese 
Government has been foot-dragging and reluctant in many cases 
to allow that debt relief because it is a major tool of policy 
that they have used to assert their influence in those 
countries.
    So I think the Chinese actually are facing a backlash, but 
I think our efforts are actually enjoying success as well. We 
are seeing business opportunities open up for the United States 
and our international trading partners in parts of the world 
that we had previously surrendered under the Belt and Road 
Initiative to China. And that no longer is the case.
    Senator Shaheen. In the end of June, this committee held a 
hearing on the international aspects of the coronavirus 
pandemic. And one of the things that we heard from both 
minority and majority witnesses, so virtually everybody who 
testified before us said that it was a mistake to withdraw from 
the World Health Organization (WHO). And one of the reasons 
they cited was because it provided a vacuum that the Chinese 
have been filling in terms of providing assistance and guidance 
to countries who are affected by the pandemic.
    Do you share that view?
    Mr. Biegun. Senator, the President made the decision to 
file notification of withdrawal from the World Health 
Organization. We have not withdrawn from the Health 
Organization and are not allowed to for a full year after 
notification is filed.
    Senator Shaheen. No. I understand that. I am asking if you 
share the view that we heard from those witnesses that it would 
be a mistake for the United States to withdraw from WHO 
particularly at this time.
    Mr. Biegun. So, Senator, let me tell you why the President 
made the decision, and I assure you that I have given the 
Secretary of State and the Secretary of State has given the 
President benefit of our perspectives on this.
    Senator Shaheen. That is okay. I have read the reports on 
why the President made his decision. I happen to disagree with 
it, but you do not need to repeat it for me.
    Mr. Biegun. But, Senator, let me also highlight that one of 
the roles I played at the Department because I have had lead 
responsibility for many of the international dimensions of the 
COVID-19 crisis is in marshalling the substantial foreign aid 
effort that the United States is undertaking.
    But the debate over the WHO is a debate over less than 4 
percent and really in the mandatory contribution, less than 
half of 1 percent of the entire budget the United States 
provides----
    Senator Shaheen. I am sorry to interrupt. But the point 
that they were making was not just about the World Health 
Organization. It was about the failure of the United States to 
provide global leadership to respond to this pandemic. And I am 
not going to ask you to respond to that because I am out of 
time.
    But I do want to point out something that I think is 
positive and note that I was very pleased to see the recent 
actions that the State Department took against Russia and its 
malign efforts. Last week's Magnitsky designations of 
subsidiaries of Russia's paramilitary arm Wagner in Hong Kong, 
in Sudan, and in Thailand I think were a very important step 
forward. And I appreciate that the State Department took those 
actions.
    I wonder if you could clarify. Was that in response to any 
particular event that we have seen? Was it a response to the 
news or the reports that Russia had provided a bounty for the 
Taliban to kill American troops?
    Mr. Biegun. Senator, the recent steps that we have taken in 
relation to Russia are simply a part of our pushback against a 
longstanding pattern of behavior that has made it virtually 
impossible for us to make progress in any way, shape, or form 
with the Russians.
    Senator Shaheen. Good. I appreciate that. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Shaheen.
    Senator Romney.
    Senator Romney. Deputy Secretary Biegun, I appreciate the 
work that you and members of the State Department are doing to 
secure our interests as they relate to China. But I am 
concerned that we are using the traditional techniques that we 
have long had, we are using them in more aggressive ways than 
we have to push back against China and their ambitions. But 
they are not working.
    China has not been diverted from the course that they are 
on. China is more assertive than I have ever seen in my life. 
During the years of Deng Xiaoping, he talked about keeping your 
head down and China would become stronger until the world was 
finally able to see how strong they were. Well, that has 
happened. They are not backing down. Look at what they are 
doing to the Uyghurs. Look at what they are doing with the 
South China Sea bases. Look at how they are cracking down on 
Hong Kong, how they saber rattle with regard to Taiwan. The 
Belt and Road Initiative. The number of ports they have and 
bases, extraordinary. The fact that the Philippines, the 
Solomon Islands are changing their course with regard to the 
relative relationship that we have had. Their cyber theft. 
Putting people in our universities to steal technology. The 
list goes on and on. It is not working.
    The normal approach that we take with countries that we are 
not happy with is not working. China represents a threat to 
freedom, to our economy, to our military capability, to our 
national security of an entirely different nature than what we 
have faced before. This is an extraordinary assault, and simply 
employing the normal techniques that we employ in normal 
circumstances is, in my opinion, not going to work.
    And actually the United States flexing all of our muscles 
alone is not strong enough because we have 330 million people 
and they have 1.4 billion people. Their economy will be bigger. 
They are already procuring as much military hardware as we are. 
They are going to be an enormous powerhouse. They are blasting 
ahead, and we will increasingly by in the rear view mirror 
unless we combine with other nations that abide by the rule of 
law, unless we link arms in a very dramatic and aggressive way 
and lay out rules of the road that they must follow or they 
will find themselves disconnected, as Senator Young has 
described, disconnected from the economy of the rest of the 
world.
    And we are not doing that. Instead we are saying America 
first, everybody go off and do your own thing. Great for 
Brexit. Let us blow up Europe. Everybody pursue your own 
interests. And America looks like we do not care about bringing 
the world together in a dramatic way.
    I would suggest a summit of the leaders of the major 
nations of the world and laying out a process to approach China 
in a very dramatic way. It strikes me when it comes to China 
strategy, we are like the Titanic. We are all running around 
straightening deck chairs and playing the music as loud as we 
can. But we are losing.
    And I look to you and ask am I wrong on that? Do we need to 
take a wholly different level of approach to combining with our 
friends around the world and confronting China to let them know 
they may not pursue the course they are on and continue to have 
free access to our marketplaces?
    Mr. Biegun. Thank you, Senator.
    You are not wrong, and I agree with you and virtually every 
senior official in this Administration agrees with you on the 
magnitude of this challenge.
    The one thing that I do not think any of us should expect 
are fast results. We are up against a generational challenge 
here. This is a formidable challenge in virtually every 
dimension of our economic, political, and social and military 
existence. We are up against a significant challenge in China.
    You likened it to the Titanic, but I would liken it more to 
an aircraft carrier that slowly begins to turn and reorient 
itself in a different direction. And that is what I have seen 
in the United States of America myself over the course of the 
last 5 to 7 years, that is, that different sectors of the 
United States, our NGOs, our think tanks, our China experts, 
our businesses, our Congress, our executive branch have slowly 
begun to reorient on the issue of China. And it was not easy 
for us to do. We invested quite a bit in the last three decades 
in a very different outcome. And sometimes wishful outcomes are 
hard to let go of, and many still have not. This Administration 
is equally criticized for moving too abruptly and too harshly 
against China or for precipitating a new Cold War. Not our 
intention.
    So, Senator Romney, you are absolutely right. It requires 
every bit of our energy and every bit of cooperation we can get 
from other countries. And it also requires strong unity here at 
home. I hope through discussions like this we can not only 
converge our views and come to a common approach on our 
strategy, but also that we can take that same sentiment abroad 
to our friends and allies both from the executive branch and 
the Congress to impress upon them how important it is that we 
partner on this issue. We are doing quite a bit in that regard 
but we can do more.
    The Chairman. Thank you, Senator Romney.
    Senator Coons. Thank you, Chairman Risch and Ranking Member 
Menendez for this important hearing.
    Deputy Secretary, thank you for your service and for your 
testimony today.
    I will simply add to the conversation that has been going 
on about the significance of the challenge that China poses to 
our security, our prosperity, our place in the world, and the 
critical role of alliances and a strong and broad and sustained 
strategy. I want to commend members of this committee who have 
worked hard to develop legislation. I think there is an urgency 
about our developing a thoughtful and bipartisan approach to 
managing our strategic competition with China, to confronting 
its digital authoritarianism, and to strengthening our allies 
and our joint approach to China for the years ahead.
    So let me move, if I could, to a question, Mr. Deputy 
Secretary. Earlier this month, the ``Wall Street Journal'' 
reported the Pentagon has presented the White House with 
options to reduce the American military presence in South 
Korea. This information comes as our President has also 
unnerved NATO and European allies and appeased Putin by 
deciding to remove a third of our troops from Germany.
    You continue to serve, Deputy Secretary, as Special 
Representative for North Korea. You have experience working on 
the Korean Peninsula. I am interested in whether you have been 
a part of these interagency discussions and how you think China 
would view the removal of a sizable portion of U.S. troops from 
the Korean Peninsula.
    Mr. Biegun. Thank you, Senator Coons.
    The Secretary of Defense actually made some public remarks 
yesterday addressing the exercise that they have been going 
through and looking at force structure in South Korea and other 
places around the world, but also was quite emphatic that he 
has made no recommendation to the President nor presented no 
particular proposal to reduce troops.
    In general, the U.S. alliance on the Korean Peninsula plays 
an incredible role in anchoring our strategic interests in the 
region not only in relation to North Korea but also potentially 
in relation to the challenges that could emanate from the 
People's Republic of China. I will say that it is an alliance 
that I spend a lot of time engaged with because of my dual hat 
on North Korea policy, and this is an issue that I had the 
opportunity to discuss with my South Korean counterparts just 2 
weeks ago when I visited Seoul.
    There is a consensus in both Seoul and here in the United 
States that we need to rejuvenate the alliance. The purpose of 
the alliance between the United States and South Korea has for 
70 years been to enforce an armistice on the Korean Peninsula 
against a country, North Korea, of 25 million people and to 
defend South Korea, a country of 50 million people and a 
hundred times the economy.
    Senator Coons. Is it your view, Mr. Deputy Secretary, that 
reducing troop levels would help rejuvenate that alliance or 
put it at some risk?
    Mr. Biegun. I think what we need to do with the alliance, 
Senator Coons, is settle the issue of burden sharing and how we 
fund the alliance and then have also at the same time a 
strategic discussion to create a sustainable footing for that 
alliance for the next 75 years. If we were able to do so, I 
think a substantial presence in that region would strongly 
advance America's security interests in East Asia.
    Senator Coons. Thank you. I have two more questions I want 
to get to quickly. So forgive me. I appreciate your answer.
    I am deeply concerned about the Administration's 
consideration of deporting or refusing to allow the return of 
foreign students. And it was initially phrased as unless they 
are doing in-person classes. And I heard from presidents of 
every college and university in my State and regionally.
    There are about 350,000-370,000 Chinese students in the 
United States. And I recognize the security risks associated 
with students from a range of countries, but much more broadly, 
the overwhelming majority of them have an opportunity to be 
exposed to our ideals, to freedom, to academic inquiry. And I 
think on balance they are an enormous contributor both to our 
academic enterprise and many take back to their home countries 
a view of the United States that is much more positive. 
Obviously, if there are cases where they abuse the privilege of 
our openness, they should be investigated, removed, or even 
prosecuted.
    But I am concerned that the Administration will continue to 
flirt with blocking or deporting foreign students. You may well 
have influence over decisions on foreign students. But would 
you remind the Administration that our ability to persuade and 
attract other nations is a tool almost as valuable as our 
ability to compel?
    Mr. Biegun. I could not agree more with you, Senator Coons. 
And in fact, we settled out in the right place on our policies. 
I have to say that there was a little bit of a turbulence 
there, and not surprisingly, many university presidents weighed 
in. I strongly agree with you on the importance of these 
student programs. And in fact, the State Department has made an 
urgent priority of not only administering where we have travel 
restrictions due to COVID still, the issuance of visas, but 
with the highest priority being on allowing student travel to 
be facilitated in order to get those young men and women here 
to the United States of America for the fall semester. So we 
very much welcome those students, and we welcome students from 
China too, as I said in my opening statement, although 
expressly for the exclusive purposes of study.
    Senator Coons. There are reports China and Iran have 
reached a broad-based 25-year agreement which would allow China 
the opportunity to invest billions in energy infrastructure, 
provide them with reliable access to lower cost Iranian oil, 
and obviously then be a major challenge to the maximum pressure 
campaign.
    Does the Administration have a coordinated strategy 
internally and with our allies to respond to deepening China-
Iran ties and China's increasing influence as a result in the 
Middle East?
    Mr. Biegun. So, Senator, the reports of that agreement are 
a little bit premature. Although the Iranians and the Chinese 
have been having a discussion for some time, there is no 25-
year agreement in place at present. That is not to say that 
they could not possibly move forward. But at this point, they 
are closer to discussing it for the past 25 years than agreeing 
on the next 25 years.
    I will say that one of the worrisome elements of China's 
behavior is it is willing to consort with undemocratic 
countries like Iran or adversaries of the United States, and 
that is a general worry that we have across the board. In the 
case of Iran, we have a comprehensive strategy toward Iran and 
that would affect China if China engages with Iran in economic 
activities that are in violation of U.S. law.
    Senator Coons. Thank you for your answers.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Coons.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Good to see you again, Mr. Secretary. I appreciate it.
    I want to just tell you how much I agree with what Senator 
Romney had to say, the concerns about China, the cover-up and 
disinformation campaign on the coronavirus, destruction of Hong 
Kong's autonomy, unlawful military activities in the South 
China Sea, theft of American intellectual property, and then 
the terrible human rights abuses that we continue to see today 
against the Uyghurs and minorities across the country.
    In terms of human rights, China is engaged in truly serious 
human rights abuses, including political, religious repression. 
These are attacks on human dignity, on religious freedoms. As 
Americans, we cannot tolerate this.
    So recently the Administration has taken strong actions to 
sanction China for its human rights abuses. And I strongly 
support the efforts of the Administration.
    Are there ways that we can better increase our support for 
the rights and the freedoms of the people of China along the 
line of democracy, opportunity, liberty, equality, the things 
that we hold dear?
    Mr. Biegun. Yes, absolutely, Senator. And thank you very 
much. Again, I want to emphasize I agree with Senator Romney's 
characterization of the magnitude of this challenge as well.
    In the case of repressions and human rights violations in 
Xinjiang, we actually used the Global Magnitsky Act, which many 
members of this committee contributed to its passage, and that 
provided us a very important tool that we could use in order to 
address those very specific human rights abuses that were 
identified in that legislation.
    But more generally, I think we need more interaction with 
Chinese civil society. And here I emphasize the point I made in 
my opening statement that we have to talk to the Chinese 
outside of China, the ones who really need to be heard and give 
voice to the aspirations of the Chinese people. But we also 
have to use a lot of the tools we have at our disposal to reach 
the people inside China to communicate with them, and I think 
that ultimately will be to our benefit.
    Senator Barrasso. With regard to--moving to the next 
topic--stealing intellectual property, one on the list that I 
have talked about, China continues to infiltrate top U.S. 
companies, laboratories, universities. It seems their goal is 
stealing valuable American intellectual property, trade 
secrets, the Chinese Communist Party clearly attempting to 
surpass us in economic strength, military capabilities, and 
international influence. It is their game plan. They are 
funding criminal hackers to target U.S. research in sectors 
ranging from agriculture to COVID-19-related biomedical 
research.
    Just yesterday--yesterday--the U.S. Department of Justice 
charged two Chinese nationals working on behalf of the 
Government of China with stealing trade secrets, hacking 
computer systems of companies who are working on a coronavirus 
vaccine. Just yesterday.
    You know, the FBI estimates that they open a new China-
related counterintelligence case not every 10 weeks or 10 
months or 10 days. Every 10 hours they are having to open a new 
China-related counterintelligence case. So the FBI Deputy 
Director believes China's economic coercion is like that, he 
described, as an organized criminal syndicate.
    So what steps must we as a nation take along with our 
international partners, as you have talked about an 
international group? What must we do to end China's economic 
espionage?
    Mr. Biegun. Thank you, Senator.
    The State Department works very closely with the FBI. In 
fact, just before this hearing, I had a phone conversation with 
the individual who you quoted a moment ago, Deputy Director 
Dave Bowdich. We are doing an enormous amount to challenge this 
as we speak. The fact that those indictments were unsealed, as 
well as two others that were unsealed in the State of 
California just a few days before, are a suggestion of the 
degree of effort that we are applying to this. And I would not 
in any way dissociate the direction that the President gave to 
the Department of State yesterday to notify the PRC about the 
removal of diplomatic status of the consulate in Houston is 
very much related to this. You will be getting more briefings 
in a different setting on these topics, but suffice it, 
Senator, it is a set of challenges that we take very seriously 
and it is one that we and our domestic law enforcement partners 
are working very hard to address.
    Senator Barrasso. My final question has to do with Huawei. 
The Trump administration continues to raise the alarms with our 
allies and partners about the national security risks of Huawei 
and the Chinese Communist Party. To me, Huawei is a Trojan 
horse. Its deep links to the Communist regime are impossible to 
ignore. They are attempting to infiltrate communications 
networks around the world and for no good. It poses a serious 
risk, I believe, not only to our national security, but also to 
privacy, to intellectual property, and to human rights.
    You know, recently the United Kingdom recognized the 
serious security threat and is taking action to ban Huawei from 
their 5G networks. It sounds like Germany is going to make a 
decision. All eyes are on Germany with regard to what they 
decide on Huawei.
    Is it your impression we are making some headway and that 
our allies are understanding the dangers that are posed by 
having Huawei and ultimately China so involved in their 
telecommunications infrastructure?
    Mr. Biegun. Absolutely, Senator. We are seeing countries 
around the world recognize the risks of bringing unreliable 
technology like Huawei or ZTE into their networks. I know that 
Senator Menendez is a bit grudging about giving us credit for 
the decision of the UK, and I will give the UK Government first 
credit of course on this. But I can assure you, Senator, that 
decision was the product of lengthy and numerous discussions 
all the way up to the level of the President and the Prime 
Minister over the course of the last several months.
    Just today, we saw France mirror the UK's decision. France 
has now announced that all Huawei technology has to be removed 
from the French telecom system by 2028, a year later but with 
the same effect. This technology will rapidly be removed from 
those networks because it will be obsolete. The systems will be 
obsolete if they incorporate it now in advance.
    So we are seeing significant success in this effort, and we 
will continue to emphasize to partners around the world that we 
will not conduct secure communications on networks that are 
supplied by these Chinese technologies.
    Senator Barrasso. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Barrasso.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    Secretary Biegun, good to see you again.
    I will start off by saying I think this is a very hard 
problem, and I also agree with both your opening testimony and 
Senator Romney's that there was a very well-intentioned 
strategy for the last three decades, really beginning with 
Nixon opening to China that we had every reason to try and hope 
it would work out. It had not. So that is unfortunate. I also 
do not give earlier administrations great credit for the way 
they handled this relationship either.
    But I will tell you the three critiques that I have about 
the Trump administration policy with China, and I want to ask 
you about the third one.
    Number one, I see a lot of action, but I sometimes have a 
hard time connecting the action to any strategy. So I mean, 
obviously, it is a massive relationship, so there is trade and 
there is diplomacy and there is human rights and there is 
military. There are a lot of things going on. But I have a hard 
time connecting the actions to a strategy.
    Number two, I think the U.S. under this Administration has 
squandered a natural advantage that we have that China does not 
have, which is a deep network of alliances, often by casting 
the alliances aside. I will go back to Senator Romney's point. 
When we want to confront China on trade, we cannot confront 
them one on one with the strength that we could confront them 
with if we linked arms with our allied nations that have the 
same concerns about China's trade practices as we do. So when 
the President started off with trade sanctions against Canada 
and Mexico and the EU, I think it made it much more difficult 
for us to try to go mano-a-mano against China. We should have 
been working with those strong allies to link arms and form a 
comprehensive strategy.
    But what I want to ask you about is my third critique. My 
third critique is I think the President's foreign policy is 
often chasing our adversaries into each other's arms. Senator 
Coons asked about the reports that are in the news. There is a 
``Newsweek'' piece today about Iran and China doing a 
negotiation for economic infrastructure and defense 
cooperation. We have seen Iran and China do joint military 
exercises in the Gulf. We have seen China and Russia do joint 
military exercises on their border in some ways that are 
troubling to me.
    As a member of the Armed Services Committee, we get 
briefings every year, and they are often classified so I will 
not give you the info. But what I can tell you is we tend to 
get briefings about U.S. capacity, and then we get briefings 
about the capacity of China and the capacity of Russia and the 
capacity of Iran. But those are all separate briefings about 
their separate capacities.
    These are nations that have longstanding difficulties and 
challenges with each other. Iran has been in the revolutionary 
period very anti-great power, any great power. China and Russia 
have had a very, very difficult relationship. And President 
Nixon realized that and pretty much counted on the fact that 
they could not agree on anything. But as we see and in the 
article in ``Newsweek'' today, there is a Wilson Institute 
comment that says President Trump is driving our adversaries 
into each other's arms as they seek to amass power at a moment 
of apparent American indecision.
    How much of the State Department are you guys looking at 
this question, the relationships between these adversaries, 
China, Russia, Iran, Turkey, whether they are getting closer, 
how much a combination of capacities, military, economic, 
diplomatic, pose a multiplied threat to the United States?
    Mr. Biegun. Thank you, Senator.
    Just very quickly on your first two points. Let me assure 
you that we seek the same goals of a coherent strategy and 
closest possible cooperation with our allies. The United States 
is a big and sprawling democracy and occasionally we get in our 
own way on both of those. But it is our aspiration, and it is 
something that we work on at the State Department every day. 
And the President has given us clear direction on the China 
strategy that is going to help us move I think in a more 
orderly way across the Administration in that direction.
    On your question, I have to tell you honestly we spend less 
time worrying about our adversaries working in concert with 
each other, although it is worrisome, and more about countries 
maybe in the middle. So it is inconceivable to me that we are 
going to have a cooperative relationship with a Venezuela ruled 
by Maduro, a Syria ruled by Assad, unfortunately a Russia ruled 
by Putin, or an Iran ruled by the ayatollahs. It is the other 
countries, the Belt and Road Initiative countries that were 
previously mentioned and also countries that have been in 
discussions with the Chinese about military basing or presence, 
countries like the UAE or Djibouti where we really have to 
apply ourselves and we do.
    As I mentioned, I did a weekly phone call with my Indo-
Pacific partners, India, Japan, Korea, Vietnam, New Zealand, 
Australia, and the United States, my counterparts. And one 
night after that weekly call--it happens late on Thursday 
evenings--I turned to my team and I asked do you suppose--what 
do you wonder what that call would have sounded like tonight if 
it was China, Russia, Syria, Venezuela, and Iran? I can tell 
you from our allies' point of view, it is a rich discussion 
anchored in historic shared interests and shared values that 
allow us to build natural cooperation, as long as we can get 
out of our own ways. And it is not just us incidentally. Many 
times our challenges come from our partners as well. But we 
work through those as friends and allies.
    We have to do that with friends and allies. We have to do 
that with the countries in the middle. I am less optimistic 
that we are going to find common cause with the adversaries. 
Unfortunately, it is the case that they will find common cause 
with each other.
    Senator Kaine. That is an illuminating answer. And I just 
would hope--and I do not need to ask it because I am sure you 
are doing it--as we watch these adversaries who have 
traditionally been opposed to each other get closer and closer 
and closer and do more and more together, we do need to be 
paying attention to them.
    Mr. Biegun. We do. And just as our relationships are based 
upon shared interests and shared values, theirs are very 
transactional. The United States has been a longstanding 
partner of countries like Australia, New Zealand, India, Japan, 
South Korea, and there is no doubt in the minds of those people 
what the long-term orientation of the United States is in our 
interests and values with them.
    Russia and China, maybe not so much.
    Senator Kaine. Thanks, Mr. Chair.
    The Chairman. Thank you, Senator Kaine.
    Senator Perdue.
    Senator Perdue. Thank you, Mr. Chairman.
    And, Secretary, thank you for being here.
    The Chairman. There is a weather warning.
    Senator Perdue. That was Huawei checking in on our hearing.
    [Laughter.]
    Senator Perdue. You know, I find myself always in these 
hearings, Mr. Chairman and Secretary, agreeing with my good 
friend from Virginia, Senator Kaine. We disagree on some things 
in terms of causative factors, but this is a very complicated 
relationship we have. We got it wrong for the last 30 years, 40 
years really. I have lived over there. I have got a background, 
and I have watched this develop. Deng Xiaoping, I think, sold 
us a bill of goods. Michael Pillsbury has written a book, ``The 
Hundred-Year Marathon,'' that acknowledges that we all got it 
wrong. All of us. It has nothing to do with policies or 
politics or anything else. It is just we got it wrong. We now 
see what they are trying to do.
    And the vacuum that was created in the last administration 
frankly in foreign policy created a vacuum that he stepped 
into. The Chinese culture never tells you what they are going 
to do unless they have decided you do not have the wherewithal 
or the will to stop them. In 2013, they put out the Made in 
China 2025 where they told the world they are going to dominate 
us in 12 areas of technologies, and they are making huge 
investments to do that. They developed the Belt and Road 
Initiative. Why? Because there was a vacuum.
    And I want to come back to the thing Senator Kaine talks 
about every time we talk about China, and that is allies. 
Senator Coons does the same thing. I think we all see this as 
our huge advantage. I want to talk about the Quad today, but 
before I do that, I want to make a comment.
    If we sat here and worried about what China is doing, we 
would worry about the Shanghai Cooperative Organization where 
they have got four nuclear powers in a defense-type 
organization, Russia, China, Pakistan, and India. Now, that is 
an odd group of partners there. So I do not really worry a lot 
about that.
    What I am looking at is that the world has become very 
binary. You have state-controlled countries, Russia, China, 
Venezuela, Cuba, others, Syria, and you have the other 
countries of the world that are self-determinant. Countries 
like Malaysia, Indonesia, Singapore are all beginning to pay 
attention to what China's ultimate goals are, and that is to 
dominate the economic and political relationship. So they are 
very concerned about that. They are actually trying to turn 
back to us.
    I do think, though, the Quad is a specific, targeted effort 
right now that we could put a lot of energy behind. I would 
like you to respond to this that Australia, India, Japan, and 
the U.S. are beginning to look at how we might pull together.
    Our economic value--and that is how we defeated the Soviet 
Union without firing a bullet was that we ground them into the 
dirt with our economy, I believe, and we bankrupted their 
ethos. We have the same opportunity here in that the economic 
power of China today is about $14 trillion unadjusted. If you 
take just the Quad, it is over $30 trillion of economic power. 
So we have the ability today to dominate the economic, military 
relationship just with those four countries. I am not including 
Europe or any of the other countries in Asia that are already 
beginning to lean our way.
    How is the State Department looking at the Quad as an 
example of a relationship that we could build and actually 
encourage others to see how they might participate to stand up 
against the bully of the next 50 years?
    Mr. Biegun. Thank you, Senator.
    If I could add your description of the global environment 
that we face to Senator Romney's description of the challenge 
we face from China, I think we would have a complete picture of 
what we see every day when we wake up at the Department of 
State.
    I agree with you that the Quad is an incredibly important 
institution. The ministerial that we held last year marked a 
milestone in how we are going to approach organizing our 
security interests and other interests in the Indo-Pacific. 
India just recently invited Australia to participate in the 
Malabar exercises, which is now going to allow all four members 
of the Quad to participate in a military exercise together that 
will be hugely beneficial to reinforcing the behaviors that are 
going to be necessary for us to defend our mutual interests.
    Just stepping back, it is not quite your question and I 
apologize for using your time. But I see our policies 
successful if they stand on four pillars. First is unity at 
home. Second is close partnership with our friends and allies 
around the world. Third is effective military deterrence, and 
fourth is a powerful economic alternative to China. We have to 
work on all four of those together. But the part about 
international cooperation will be fundamental.
    I actually think if we get all four of these right, we 
produce the best outcome with China as well because if China 
sees that that is how the world is aligned against its efforts, 
it will have the best incentive to change its behavior in a 
peaceful manner as well.
    Senator Perdue. Thank you.
    I will yield my time, Mr. Chairman. Thank you.
    And I would just like to make a comment that I think this 
type of meeting with someone at this level in the State 
Department and in the Administration is so critical to have us 
develop more of a nonpartisan view of China that could 
transcend administrations. That is the problem with dealing 
with China. You cannot yo-yo your relationship with a country 
like that because they are going to be much more monotone over 
a longer period of time.
    Thank you for having this hearing.
    Senator Kaine. Mr. Chair, could I just tell Senator Perdue 
that that noise was a flash flood warning that started just 
when he started to speak.
    [Laughter.]
    Senator Kaine. I do not know if there is any connection, 
causal----
    Senator Perdue. Thank you, Senator.
    The Chairman. Fortunately, we are not on the ground floor. 
Thank you, Senator Perdue.
    Senator Murphy.
    Senator Murphy. Thank you, Mr. Chairman.
    Good to see you, Mr. Secretary.
    U.S. foreign policy for much of the last 40 years has been 
about studying the interactions of China, Russia, and the 
United States, and two of that three trying to play off one 
against the other.
    I want to ask two questions today that get at what I think 
is a continued priority for this committee and this 
Administration to understand how that interplay works in modern 
times.
    The first is this. You have laid out a series of actions 
that the Administration is taking with the hope of sending 
clear messages to China about the consequences of its actions 
especially when it comes to ways in which they infringe on the 
rights of the United States at home and abroad. But China does 
not pay attention only to the messages we send them. They also 
pay attention to the messages that we send to other nations. 
And Russia is at the top of that list.
    I do not think we have gotten a chance yet to get a member 
of the Administration on the record with respect to very 
credible reports that suggest the Russian Government was paying 
what would commonly be referred to as bounties for the murder 
of U.S. troops in Afghanistan. That, of course, crosses a line. 
It is a fairly unprecedented abuse of one Security Council 
permanent member by another. And thus far, the American public 
and the world have not seen any consequences, not even a public 
acknowledgement of that abuse having been committed against the 
United States. I worry that China watches that and takes 
signals from it.
    So I wanted to just ask you to tell us for the record today 
whether any action has been taken or is planned to be taken 
with respect to these, I think we would all agree, very 
credible reports.
    Mr. Biegun. Thank you, Senator.
    I will answer your question, but I am also going to be 
mindful of the fact that the information that you are 
discussing comes from sensitive sources and methods.
    But let me say this. Any suggestion that the Russian 
Federation or any part of the Russian Government is employed in 
providing resources to fighters from other countries to attack 
American soldiers will be met with the most severe 
consequences, including those individuals and their movements 
in the areas in which they are undertaking those activities. 
Were that to happen, they should expect a full and robust 
response.
    I will also say that any such report that came into the 
United States of America would be treated in two manners. 
First, it would immediately be notified to the force commander 
and all necessary steps would be taken in order to protect U.S. 
soldiers anywhere in the world, particularly in a place like 
Afghanistan in which they serve every hour of the day in a 
hostile environment. But it would also be the subject of a 
conversation between very senior officials in both governments 
in no uncertain terms.
    Senator Murphy. I think the horse is out of the barn with 
respect to these reports being solely classified, and thus, 
while you may be suggesting that there are actions being taken 
that have not been made public, I think we are at the point 
where the world and this country wants to know what those 
consequences are. And I think it does have impact with respect 
to our relationship with other great powers.
    Which leads me to my second question with respect to the 
interplay of the United States, Russia, and China, and that is 
with respect to the negotiation of an extension of New START. 
The Administration has laid down some priorities in order to 
get to a new agreement. One of them is the inclusion of China 
in those discussions and ultimately in a new agreement. Were we 
to all live in a perfect world, of course we would want China 
at that table. Of course, it is in our interest to have China 
right now before they acquire the same number of arms and 
warheads as the United States agree to some limitation. But it 
likely does not stand to reason that China is going to enter 
into those negotiations because they would likely want time to 
catch up before they sat at a table with us.
    And so I think I would just love some assurance that we are 
not going to give China the veto power as to whether we engage 
in a renewal of an agreement with China that, I think we can 
all agree, the confines of that agreement has worked to limit 
the arms race. I just want to make sure that China is not going 
to be the one that decides whether the United States and Russia 
decide to renew that agreement.
    Mr. Biegun. I appreciate that take, and Senator, I think 
you can see the evidence in front of you. I know that our 
Special Envoy for Arms Control testified in his additional 
capacity yesterday as the nominee to be Under Secretary for 
Arms Control and International Security Affairs, and also he 
was up here a few weeks ago I believe to brief members of the 
committee on the progress in our discussions with the Russians. 
Those are ongoing. We are imminently going to be dispatching 
the technical teams to continue a deeper level discussion in 
Vienna with the Russians, and that decision is ongoing.
    There is still a seat at the table reserved for China, but 
those conversations between the United States and Russia are 
going.
    I believe my colleague at the Department of State has 
emphasized this point in his discussions with you, but let me 
say it publicly as well. Russia has every reason to want China 
at those discussions as well. Russia faces a far more 
formidable challenge from China's presence on its southern 
border than the United States does.
    And this goes to the transactional nature of the 
relationship that I think exists between the two countries. The 
history between Russia and China is one of significant tension, 
and the fact that it is papered over today because of a shared 
adversarial relationship with the United States is not an 
enduring basis for China-Russia relations. And I think many of 
the experts in Russia who work on these issues know full well 
that China should be at the table as well not only because of 
its potential strategic challenge that it could pose to the 
Russian Federation but because China as a P-5 member and is a 
recognized nuclear weapons state under the Non-Proliferation 
Treaty is obliged to participate in good faith negotiations to 
reduce the level of nuclear forces that it holds. The Non-
Proliferation Treaty does not say in proportion to other 
countries in the world. It says good faith efforts on reduction 
of nuclear forces, and that is what we are requesting of the 
People's Republic of China.
    Senator Murphy. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Murphy, for that line of 
questioning too.
    Senator Merkley.
    Senator Merkley. Thank you, Mr. Chairman.
    And thank you for your testimony, Deputy Secretary.
    The trade deficit between the United States and China has 
had a huge impact in transferring wealth and jobs from America 
to China, and in the course of that unfolding, we have watched 
in a short period of time China go from bicycles to traffic 
jams to bullet trains. It is not that many years ago that we 
had a congressional delegation go to China. They had their 
first bullet train, 200 miles, Beijing to Tianjin on the coast. 
Now they have 16,000 miles.
    President Trump made this point, campaigned on this point, 
has continued to make this point, and yet between 2015 and 
2018, our trade deficit increased over 14 percent in 
manufactured goods, in a higher level of disparity between the 
two economies.
    Is this a topic that the team is deeply engaged in? Because 
here we are talking about the surging China, and yet it is the 
very policy of the United States that provided the economic 
foundation for that surge.
    Mr. Biegun. Thank you, Senator.
    Yes, this absolutely remains one of the President's top 
priorities and one that particularly our counterparts in our 
economic agencies pursue aggressively but also certainly 
remains a priority for the Department of State as well.
    We have a lot of progress that we have to make in order to 
rebalance our trade relations. The phase one trade deal was 
just that. It was phase one. It was an early harvest. It was an 
attempt in a few sectors to begin to right the balance, but 
there is much, much more work that needs to be done in order to 
eliminate the structural impediments to a more balanced U.S.-
China trade relationship, and we are committed to pursuing 
those.
    Senator Merkley. Thank you. Well, I am glad you are 
committed to it. You are working on it. Mitt Romney proceeded 
to note that free access to our market has been a significant 
factor in China as well.
    But here is the thing. The efforts proceeded in such a 
fashion that the trade deficit actually has grown in 
manufactured goods. A kind of chaotic throwing of rocks at 
China and them throwing rocks back at us does not get us to a 
reduced trade deficit. So it has to be a much more coherent, 
strategic strategy than the one we have seen so far.
    I have been very concerned about China's enslavement of a 
million Uyghurs using all kinds of facial recognition 
technology, other IDs, surveillance, producing an enormous 
amounts of goods, many bound for the United States.
    Should the United States completely end the ability of 
China to send goods manufactured under this slave labor 
strategy with a million Uyghurs to the United States?
    Mr. Biegun. We should import no goods from any country, 
including China, made with slave labor. And, Senator, the 
recent series of sanctions that we imposed upon several Chinese 
companies operating in Xinjiang were precisely for that 
purpose.
    Senator Merkley. Well, of course, it is not just Chinese 
companies. It is American multinationals as well that have 
operations in this area. It has been sometimes hard to get the 
clear facts. I understand it is difficult.
    Mr. Biegun. Senator, we have sent out a business advisory 
to the CEOs of the 500 major U.S. companies, as well as every 
business association in Washington, DC and specifically the 
ones operating in China, that they will be held accountable if 
materials or components made through forced labor or slave 
labor in Xinjiang appear in their products.
    Senator Merkley. Thank you. I will say I was extremely 
disturbed to hear that President Trump had dismissed this slave 
labor, this enslavement of the Muslim community as unimportant 
in his conversations with Chinese leaders.
    I want to talk about Taiwan. I do not think it has been 
discussed here today. We have had essentially a position going 
from our early opening of the relationship with China where we 
have accepted the concept of their sovereignty over Hong Kong 
and over Taiwan. Well, they have now dramatically violated the 
terms of the agreement of two systems, one country for Hong 
Kong. And Taiwan has essentially been operating as an 
independent country for a very long time.
    Is it time for us to start looking seriously at starting to 
treat Taiwan as a country, not an extension of China?
    Mr. Biegun. Senator, the policy of this Administration is 
to uphold the One-China policy, but consistent with that, also 
to fully enact the protections underneath the Taiwan Relations 
Act and the Three Communiques.
    In the case of Taiwan, we commend them for building a 
robust democracy. A recent election represented the true will 
of the Taiwanese people. And it is a tremendous accomplishment 
and it is a demonstration to the people of China that a 
Confucian-based society is capable of operating fully within 
democratic norms.
    I will point your attention to a series of high profile 
public remarks that have been made by senior administration 
officials, including the Attorney General, the National 
Security Advisor. Tomorrow, Secretary Pompeo will be giving 
some remarks out at the Nixon Library in California, and he 
will be talking about some of these issues.
    Senator Merkley. Thank you.
    The Chairman. Thank you.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    And I really appreciate you being here, Mr. Secretary.
    Like many here and in the Administration, I am very 
disturbed by the recent authoritarian turn in China from Hong 
Kong to the Uyghurs to Tibet and across their civil society.
    And while this is happening, I am also deeply concerned 
about our own moral authority on these matters and it eroding 
here at home, limiting our ability to rally the world to put 
pressure on China, as many others have spoken about today. The 
sad fact is this Administration has taken a hostile attitude 
towards asylum seekers, separating children, some of them very 
young, from their families. They are doing it on purpose as a 
cruel deterrent to tell others to stay away from America when 
fleeing violence.
    Last month, we saw the National Guard members using pepper 
spray, rubber bullets, and other blunt instruments against 
peaceful protesters in the streets of our nation's capital.
    This week in Portland, camouflaged federal agents have been 
taking peaceful protesters into custody in unmarked vans and 
beating protesters, including a 57-year-old nonviolent Navy 
veteran.
    These scenes echo those on the streets of Hong Kong. This 
is a moment that cries out for national leadership, but this 
President only offers unhinged threats of violence against 
Americans exercising their First Amendment rights. Many are 
increasingly concerned that the President's behavior and those 
of his loyalists creates divisions at home. This committee 
needs to consider how that weakens us abroad as well.
    Let me be clear. We should oppose any such behavior from 
the Chinese or any government that represses their people. 
Their treatment of Tibet and the Uyghurs is in particular 
totally unacceptable. But authoritarian crackdowns here at home 
and the hawkish saber rattling are not going to help those in 
Hong Kong or repressed religious minorities. Sanctions have not 
worked in Cuba and they are unlikely to work with China. There 
is no good military solution here. Like with the Soviet Union, 
we can overcome repression with openness, welcome asylum 
seekers, foster freedom of speech, show a better example.
    What has been the response of our adversaries and our 
allies to this Administration's actions like child separation, 
cutting off asylum, and now paramilitary crackdowns on mostly 
nonviolent protesters? How is that impacting our efforts to 
build coalitions to push back on China's authoritarianism, and 
are we facing more accusations of hypocrisy?
    Mr. Biegun. Senator, I generally am an agreeable person, 
but I have to say I cannot agree with nearly anything that you 
just laid out.
    I think the type of protests that you see playing out in 
the streets of the United States of America within a democratic 
system with the rule of law and democratic rights guaranteed to 
all, the ability to choose officials who govern them and the 
responsibility of law enforcement authorities themselves to be 
answerable to the law represents an entirely different 
situation than what we are seeing play out in Hong Kong.
    I understand the temptation, and certainly the Chinese----
    Senator Udall. How about the part where you have the 
President going for a photo op and clearing peaceful 
protesters? I mean, that does not sound to me like the America 
I know, Mr. Secretary.
    Mr. Biegun. Senator, I understand that this moment has 
excited strong emotions and some of them we see playing out in 
the streets, some in an orderly way, which is part of a robust 
democracy, and some of it in a disorderly way that does require 
some level of enforcement and authority in order to protect 
private property and the safety of individuals. That is the 
moment we are in.
    But we are in that moment in a democratic society, Senator, 
in which you and I can have this discussion openly. And to 
suggest that there is any comparison with the environment in 
which we are having this discussion and the one that brave 
democracy leaders like Joshua Wong and Nathan Law face in Hong 
Kong is simply wrong. This is a moment that has excited a lot 
of passions here in the United States, and it is an 
uncomfortable moment for us because of that. But it does not 
indict our democracy. The resolution of these issues through 
the rights and liberties that all citizens in this country are 
guaranteed under our Constitution and by our courts is exactly 
how we move forward as a society. And we will.
    Senator Udall. One quick question on the health care front. 
Are the CDC, NIH, and others in the United States being allowed 
to share scientific information about COVID-19 with their 
respective Chinese counterparts?
    Mr. Biegun. So, Senator, we are very interested--and I laid 
out in my opening testimony deeper cooperation with the health 
authorities in the People's Republic of China to understand 
both the origins and characteristics of the COVID-19 virus, as 
well as cooperation, as the President said, on potential areas 
of addressing or treating it.
    I will say that it has been a stubborn resistance we have 
faced from the People's Republic of China dating back to mid-
January when I was first engaged in this issue and the Chinese 
Government over several weeks refused to allow a WHO delegation 
into China in order to examine these very issues at the 
beginning of the crisis.
    At present, we are now in an environment in which the World 
Health Assembly has overwhelmingly passed a resolution calling 
for that exact kind of investigation under independent 
leadership. The WHO has appointed two respected leaders to lead 
that effort, and they are deeply frustrated by their inability 
to gain access to China in order to do the work that the World 
Health Organization has appointed them to do.
    We would be prepared to have that kind of discussion, and I 
highlighted it in my opening testimony as one of the potential 
areas that we could potentially open some areas of cooperation 
with China that would be to the benefit of the entire world.
    Secretary Pompeo likewise framed these issues with his 
counterpart in Honolulu approximately a month ago when we met 
there. Unfortunately, the Chinese have not taken us up on that 
proposal.
    Senator Udall. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Portman.
    Senator Portman. Thank you, Mr. Chairman.
    And, Steve, thank you for being here. When you decided to 
step up and come back into public service, I said this was an 
important time in our country's history. I was glad you were 
stepping up. I had no idea how important it would be.
    So here we are talking about one of the great challenges we 
face now as a country with China having an increasingly 
aggressive posture toward us in so many areas. And I know this 
has been discussed today, certainly in trade where I am hopeful 
we can finish phase one, but phase two seems unlikely, and they 
continue to not play by the rules. Military adventurism in the 
South China Sea and elsewhere. The saber rattling we have seen 
recently vis-a-vis Taiwan and elsewhere. The human rights 
abuses as it relates to the Uyghurs. I was in Tibet a couple of 
years ago and got to see some of what goes on there. And then 
recent passage of this new national security law with regard to 
Hong Kong, I mean, so many troubling things.
    And I am going to ask you about another one this afternoon 
which relates to China systematically targeting U.S. 
researchers and good research and then taking that research. 
And we have new legislation we just had marked up in committee 
today to combat that.
    But with this long list, this sort of list of 
``horribles,'' tell me something good that is happening in 
respect to our relationship with China.
    Mr. Biegun. An issue that I know is near and dear to you, 
Senator, and one that you have shown leadership in, the Chinese 
just in the past several days invited the DEA to establish a 
presence in one of our consulates in China in order to deepen 
our collaboration on fighting against not only the trade in 
fentanyl but the trade in the precursors that we have seen 
being used to evade some of the restrictions that have been put 
in place. It is a small issue but it is one that we can 
potentially work on with the Chinese.
    I stay in regular contact with my Chinese counterparts on 
North Korea. It is an important area of shared interest between 
the United States and China. I would not say that they are 
completely faithful in fulfilling their responsibilities under 
the international sanctions regime, but still they do generally 
push in the right direction and it is an area at least where we 
can have discussions.
    We stay in close touch with the Chinese Government on the 
peace process in Afghanistan. Like many other countries in the 
region, China has a shared interest in a stable outcome in 
Afghanistan. Of course, we do not want to see the territory of 
Afghanistan surrendered to terrorist rule again and, frankly, 
neither does the People's Republic of China.
    There are several areas that I highlight in my testimony 
where there are at least areas of potential cooperation between 
us.
    I will say, Senator, that my 16-page testimony had to be 
cut back one-third, and in doing so, we had to remove a litany 
of the issues that you have raised and many of them still are 
enumerated there. It is a long list and a formidable challenge, 
a generational challenge that we face with China. And 
notwithstanding these smaller areas of cooperation that I have 
highlighted, we have an enormous task ahead of us to turn back 
the challenge from China.
    Senator Portman. I agree. The challenge is only growing 
every day, as I see it, and that is one reason I wanted to ask 
you about some of the positive lines of communication that we 
do have open with China. It is important to have that.
    I believe that, with regard to the stealing of technology 
and innovation, that we are finally waking up as a country. I 
think that we typically tend to point the finger at China when 
in fact we need to get our own house in order in many respects, 
and one is not to be naive about what the Chinese have been up 
to through the Chinese Communist Party, which is really what is 
behind this, and their relationship with their own 
universities, their own research. For 20 years, as you know, 
for two decades, they have been systematically taking our good 
research, much of it paid for by the U.S. taxpayer, $150 
billion a year, and using it to help fuel their own economic 
rise and their military rise because some of it is military 
technology.
    I think you are aware of the fact that we have legislation 
again that was marked up today in the Homeland Security and 
Governmental Affairs Committee. We have worked very closely 
with your people because one of the five major elements of this 
legislation has to do with the visa process and the ability to 
deal with the current loophole in law as it relates to export 
controls and as to being able to deny a visa based on somebody 
coming to this country in order to take some of our most 
sensitive information. So, one, I want to thank your people. 
They testified before us. They have worked closely with us. 
They have helped us to address concerns that some in the 
university community had.
    But do you have any thoughts on this broader issue? Our 
legislation is called the Safeguarding American Innovation Act 
because that is what it is about. And again, there are several 
elements to it, but one that is very important relates directly 
to your Department.
    Mr. Biegun. Thank you, Senator.
    First, we are in complete agreement on the gravity of the 
problem, and it has been a persistent problem ongoing for a 
very long time. We now have more tools that we can use to push 
back against it. And as I said earlier in the hearing, the 
State Department is working closely with our domestic law 
enforcement partners in order to address these issues.
    In the coming days, you are going to be the recipient of 
some additional briefings on these matters related to some of 
the steps the President directed the Department to take this 
week, as well as some of the indictments that have been 
unsealed by the Department of Justice. I will only say that you 
will get more detail on the full effort that we have undertaken 
in order to push back against those predations.
    Senator Portman. That is great. Well, the indictments and 
the arrests have increased substantially since our report came 
out at the end of last year. And we called for DOJ and the FBI 
to step it up and they have, to their credit. But I think we 
have just seen the tip of the iceberg, including 54 scientists 
just being relieved of their duties at the National Institutes 
of Health. They are researchers they had been providing grant 
funding to; some had resigned and some were fired. We have 
countless examples now, including in my own state of Ohio of 
people who have, shall we say, a conflict of commitment, taking 
millions of dollars from China, taking millions of dollars from 
the U.S. taxpayer, not revealing the Chinese money, setting up 
replicate labs in China and taking the research, taking 
innovation, really leapfrogging us by taking advantage of our 
relatively open research enterprise.
    So we appreciate your work on that, and again, thanks to 
the State Department visa folks working with us on an important 
element of that legislation to counter this.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Portman.
    Senator Cruz.
    Senator Cruz. Thank you, Mr. Chairman.
    You know, these are very divided times for our country. I 
have to say just a few minutes ago, this committee heard a 
Democratic Senator compare federal law enforcement agents to 
Chinese Communist oppressors, silencing and brutalizing 
protesters in Hong Kong. Political disagreements are fine, but 
let me say for the record that comparison is obscene. It is 
false and it is grotesque.
    I recognize we are 104 days out from an election, but last 
week the Speaker of the House tweeted out a statement calling 
federal law enforcement officers storm troopers, a term 
typically reserved for Nazis and other such oppressive thugs. 
She alleged that the storm troopers were kidnapping people on 
the streets. She described those people as innocent and 
peaceful protesters. Cops are not storm troopers. And an arrest 
is not kidnapping. And people who are engaged in violent acts 
of riot, who are assaulting innocent citizens, who are fire-
bombing police cars, who are attacking federal buildings and 
courthouses, who are murdering police officers are not engaged 
in peaceful protests.
    So I would just encourage members of this committee and 
Members of the Senate--you may not like the President. That is 
your prerogative in a democratic system, but slandering federal 
law enforcement officers for protecting courthouses and federal 
properties by calling them, analogizing them to Communist 
thugs, those are not comments befitting the Senate of the 
United States.
    Now, Mr. Biegun, speaking of Communists, this morning it 
was announced that the State Department asked the Chinese 
consulate in Houston to vacate the premises within 72 hours. I 
was wondering if you could tell this committee what the reason 
for that was and what the basis was for it.
    Mr. Biegun. Thank you, Senator Cruz.
    In my earlier remarks, I highlighted three areas of 
particular concern the United States has that led the President 
to make these decisions.
    One is the persistent theft of U.S. technology by Chinese 
Government representatives and agents.
    The second is the degree to which that is being done 
through abuse of our student exchange systems.
    And the third is the behavior of Chinese diplomats in the 
Houston consulate in a manner that it is incompatible with the 
standard practice of diplomacy.
    There will be sensitive briefings given to members of the 
committee. They have been arranged now and our counterparts in 
domestic law enforcement have likewise been in touch with their 
oversight entities. I want to assure you that you will have 
more detail on this, but for purposes of an ongoing process and 
also an ongoing investigation, I would prefer to leave further 
detail for that discussion.
    Senator Cruz. And I have that classified briefing already 
scheduled this week. But I would encourage the State 
Department, to the extent possible and consistent with 
protecting sources and methods, to make the basis public. I 
think it is beneficial. I have no reason to doubt your 
representations that the personnel at the Chinese consulate in 
Houston were behaving in ways harmful to U.S. national security 
interests, but I think it is beneficial for both Americans and 
the world to understand some of the evidence about what those 
threats were.
    Let us shift to a different topic and that is Taiwan and 
what the U.S. can do substantively and symbolically to 
emphasize support for our ally.
    In 2015, the Obama administration responded to a request 
from China and banned Taiwanese officials and military members 
from displaying their flags or insignia on U.S. Government 
property and bases. I have introduced legislation that would 
reverse these guidelines. But that decision could also be made 
within the State Department by the Administration.
    Can you speak as to how the Administration views this 
specific issue, whether Taiwanese officials should be able to 
display their flags and insignia, and also address more broadly 
the issue of supporting Taiwan in the face of Chinese 
aggression?
    Mr. Biegun. So on the specific question, I was unfamiliar 
with that policy pronouncement in the previous Administration, 
and it is one that we are more than happy to take a look at 
with an eye toward reversing it.
    Senator Cruz. I would appreciate it.
    Mr. Biegun. In regard to our broader relationship with the 
people of Taiwan, the Secretary commended President Tsai on her 
very successful election, as I said earlier, demonstrating that 
Chinese heritage, a Confucian society, is not incompatible with 
democracy, and we should never forget that. And we should only 
hope that the people of China can all enjoy the fruits of 
democracy.
    In the meantime, the United States remains fully engaged in 
our commitments under the Taiwan Relations Act and the Three 
Communiques. We are providing ongoing support for the defensive 
capabilities of the people of Taiwan and, in fact, just 
recently some additional sales on top of already the largest 
arms sale to Taiwan by any administration since the United 
States recognized the People's Republic of China.
    We expect China to uphold its commitments to peacefully 
resolve any dispute with Taiwan, and we watch very closely over 
that fact.
    We also believe that there is an important place for 
Taiwan, for example, in the World Health Assembly as an 
observer and participating in the global dialogue on protecting 
the international community from the ravages of pandemics like 
COVID-19. The Taiwanese authorities enjoyed tremendous success 
in containing COVID-19 because perhaps they, even more so than 
many of us, were aware of exactly what they were contending 
with, not just in terms of the virus but in terms of the 
country from which it originated.
    So we have a very high esteem for Taiwan, and Senator, I 
will take a look at the issue that you asked us about.
    Senator Cruz. Thank you. I appreciate it.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cruz.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    I think it was Oliver Wendell Holmes who said a man must be 
judged by the passions of his time. And I would simply say that 
when we have federal agents sweep up innocent and peaceful 
protesters in Lafayette Park so that the President can have a 
photo op, it does not serve our cause of promoting in the world 
democracy and human rights as an example. And so I think that 
the Senator from New Mexico, as his last question, was pursuing 
that with the Secretary. And I think we could all agree there 
was a lot of silence when that took place. But I think we could 
all agree that is not in our collective interest.
    Mr. Secretary, there are consistent reports that U.S. 
companies failed to undertake basic labor and human rights 
assessments in Xinjiang, in essence, willfully ignoring the 
horrific conditions of forced labor in Xinjiang. This is a 
particular problem for clothing and garment manufacturers, 
given that 84 percent of Chinese cotton comes from Xinjiang.
    Further, recent reports have indicated that a wide array of 
U.S. companies, including Apple, Kraft, Heinz, Coca-Cola, and 
the Gap, among others, have sourced or continue to source from 
Xinjiang.
    Other international firms with considerable U.S. presence 
also have operations in Xinjiang, including those who have 
partnerships with state-owned military contractors that 
manufacture and supply the Chinese Government with the mass 
surveillance tools it uses in its new digital authoritarianism 
and other tactics of repression.
    So given the ongoing threat that the sourcing of goods and 
services produced by forced labor from Xinjiang poses to the 
global supply chain, what is the Department doing to make U.S. 
companies aware of the glaring human rights issues that they 
are contributing to by sourcing goods from Xinjiang?
    Mr. Biegun. Thank you, Senator Menendez.
    I can assure you that we share 100 percent the concerns 
that you laid out and we are actively engaging with the private 
sector in order to ensure that they put in place the mechanisms 
to detect any entry into their supply chain of goods made in 
Xinjiang from forced labor, slave labor.
    Senator Menendez. How so?
    Mr. Biegun. Just 2 weeks ago, the Under Secretary for 
Economics, Keith Krach, sent a personal letter to 500 CEOs 
across the country, as well as to every trade and business 
association operating in China, laying out the supply chain 
dimensions of this, how companies need to pursue and look at 
their own supply chains in order to determine to remove this.
    It is not the first time we have confronted issues like 
this, Senator. I think you are well aware and you probably have 
also been supporter of initiatives like the blood diamonds 
restrictions or the conflict minerals out of the Great Lakes 
region. It requires steady pressure and a setting of the bar by 
the government, which we have done with these companies, and it 
will include enforcement, including using tools and mechanisms 
like the Security and Exchange Commission to hold companies 
accountable if they in fact do not expunge these goods from 
their supply chains. That is our clear message.
    Senator Menendez. What is the priority for the Department 
on this issue?
    Mr. Biegun. Very high. One of the senior-most officials in 
the Department has taken the personal initiative to try to 
persuade companies around the country to take this action 
before enforcement.
    Senator Menendez. We look forward to continuing to engage 
with you on that, including with the private sector. They need 
to be responsible in this regard.
    Mr. Biegun. I agree with you, and this conversation here 
hopefully will help further illuminate and create the 
expectations that those companies need to abide by.
    Senator Menendez. Finally, last week the State Department 
released a 2018 diplomatic cable noting that the Wuhan 
Institute of Virology had ``a serious shortage of appropriately 
trained technicians and investigators needed to safely operate 
this high containment laboratory.''
    First, as you may be aware, I have been asking since March 
of this year repeatedly for these cables and for engagement and 
a briefing from the Department for this committee on the 
question of COVID origins, a vital national security issue, to 
which I have received no response, no briefing, nothing.
    Given all the statements by senior level administration 
officials on this issue, I find it perplexing that the 
Administration has been unwilling to engage with Congress as to 
these simple requests as I am sure you would were you still 
here as a senior staff member of this committee.
    Can you pledge to me that the Department by the end of this 
week will schedule this long-requested classified briefing and 
discussion for the committee to take place before the end of 
this work period, which is ending in another 2 weeks?
    Mr. Biegun. I will pledge to try, Senator. And I will be 
back in touch with your team through our Legislative Affairs to 
seek to schedule such a briefing. Certainly the level of safety 
at Chinese laboratories around the breadth of the People's 
Republic of China is an ongoing issue of concern. It has been 
written about extensively in any number of public journals, 
including a well-known Science magazine story about several 
cases in which viruses----
    Senator Menendez. I hope we can get the briefing so we can 
make an independent judgment of what you have or do not have. 
So I will look forward to hopefully getting a--this has been 
going on since March. Yet, I see Peter Navarro on TV, of 
course, the President himself, and other senior administration 
officials constantly refer to these things in public for the 
press, for the consumption. But members of the United States 
Senate and of this committee cannot get access to something as 
critical to understanding the nature of the veracity, the depth 
of the understanding, and whether or not this is the case that 
is being promoted by the President.
    So let me ask you this in the open, which is not a question 
of a classified. Does the United States Government have clear 
and convincing evidence that this pandemic originated in and 
was released from the Wuhan Institute of Virology?
    Mr. Biegun. Senator, like any matter that happens well 
outside the reach of our ability to see and touch and feel, 
there is some uncertainty around that matter. I have been part 
of the discussion on COVID-19 since mid-January. I have had the 
opportunity to discuss this very question with some of the 
leading experts in the United States, including fellow members 
of the Vice President's Coronavirus Task Force, such as Dr. 
Redfield, Dr. Fauci, as well as our own operational medical 
experts in the State Department. I will say that it is 
inclusive, but that only highlights the extreme urgency for the 
World Health Organization inquiry that was authorized at the 
World Health Assembly meeting earlier this year to be able to 
get on the ground in Wuhan, to have access to the Wuhan 
Virology Institute, and make that firm determination.
    Senator Menendez. So I hear you say that it is inclusive. I 
asked you whether there was clear, convincing evidence. You 
said it was inclusive. I share with you that we should have all 
of the facts, but until we do have all of the facts, making 
statements and assertions that are as if they were fact does 
not serve us well.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Menendez.
    For members, the record will remain open until 5:00 p.m. on 
Friday for questions.
    Secretary, thank you so much for being here. Thank you for 
being so generous with your time. I can tell you we sit through 
a lot of these, and I really appreciate your good faith effort 
to address the questions sincerely and as best you can.
    So with that, the committee will be adjourned.
    [Whereupon, at 4:19 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


 Responses of Deputy Secretary of State Stephen E. Biegun to Questions 
                  Submitted by Senator Robert Menendez

                                   5g
    One of the major issues playing out in public currently is how 
Chinese companies are playing an increasingly dominant role in 
development and implementation of 5G mobile communications 
technologies. We are increasingly seeing the implementation of products 
from companies such as Huawei around the globe, ranging from Europe to 
Asia to Latin America to Africa:
    Question. What security concerns does the Administration see in the 
proliferation of Chinese made 5G technologies around the globe?

    Answer. The Administration is deeply concerned about the dangers of 
networks that can be manipulated, disrupted, or controlled by 
authoritarian governments that have no democratic checks and balances 
and no regard for human rights, privacy, or international norms. U.S. 
security concerns are much broader than industrial and political 
espionage. Untrusted, high-risk vendors like Huawei and ZTE could 
provide the PRC's Communist Party-led, authoritarian government the 
capability and opportunity to disrupt or weaponize critical 
applications and infrastructure or provide technological advances to 
the PRC's military forces.

    Question. What is the Administration doing to counter this spread?

    Answer. The Administration is taking strong action at home and 
abroad to confront this challenge. Domestically, President Trump signed 
an Executive Order May 15, 2019 entitled ``Securing the Information and 
Communications Technology and Services Supply Chain,'' and a national 
emergency continuation notice on May 13, 2020. The E.O. empowers the 
U.S. Department of Commerce to prohibit transactions involving 
information and communications technology or services designed, 
developed, manufactured, or supplied by persons owned by, controlled 
by, or subject to the jurisdiction or direction of a foreign adversary, 
and that pose an undue risk of sabotage or subversion to the U.S. 
information and communications technology and services.
    Abroad, the Administration is implementing a coordinated set of 
measures to 1) encourage countries to put in place risk-based security 
measures that prohibit the use of untrusted vendors like Huawei and ZTE 
in 5G and other next generation networks; and 2) level the playing 
field for trusted vendors to compete and win.

    Question. Have our efforts to pressure countries to not use Huawei 
products been successful in light of the fact that so many countries 
continue to integrate their technologies into their infrastructure?

    Answer. Yes, we are seeing the tide turn against Huawei and 
untrusted technology vendors as additional countries put in place 
restrictions and a growing list of carriers choose to procure from 
trusted vendors. Australia and Japan were two of the earliest countries 
to put in place security measures to protect their 5G networks. 
Recently, a growing number of countries have likewise put in place 
strong security measures to protect their networks against untrusted 
vendors, including: the Czech Republic, Denmark, Estonia, Latvia, 
Poland, Romania, Sweden, and the United Kingdom. In addition, some of 
the largest telecom companies around the globe are also becoming 
``Clean Telcos'' by choosing to work only with trusted vendors. We've 
seen this with Orange in France, Jio in India, Telstra in Australia, SK 
and KT in South Korea, NTT in Japan, and O2 in the United Kingdom. In 
June, the big three telecommunications companies in Canada decided to 
partner with Ericsson, Nokia, and Samsung.

    Question. How will a Chinese centric 5G ecosystem affect U.S. and 
allied security?

    Answer. The risks from a PRC 5G ecosystem to the security of the 
United States and our allies and partners are numerous, including 
espionage, disruption, and/or manipulation of networks enabling 
critical infrastructure and services. Untrusted, high-risk vendors like 
Huawei and ZTE could provide the PRC's Communist Party-led, 
authoritarian government the capability and opportunity to disrupt or 
weaponize critical applications and infrastructure or provide 
technological advances to the PRC's military forces.

    Question. Did the President of the United States give a green light 
to the President of China to build his concentration camps?

    Answer. More than any other government, the United States has taken 
concrete action to combat the PRC's campaign of repression in Xinjiang, 
to include visa restrictions, financial sanctions, export restrictions, 
import restrictions, and the release of a business advisory. We have 
also joined with like-minded partners in publicly condemning these 
human rights abuses. We will continue to call on the Chinese Communist 
Party to immediately end their horrific practices in Xinjiang and ask 
all nations to join the United States in demanding an end to these 
dehumanizing abuses.

    Question. How has the Department engaged with the Indian government 
to develop a diplomatic strategy against Chinese efforts to violate the 
sovereignty of countries in South Asia?

    Answer. The United States' comprehensive global strategic 
partnership with India is central to achieving our shared vision of a 
free, open, inclusive, peaceful, and prosperous Indo-Pacific region, in 
which the principles of sovereignty and territorial integrity are 
respected. The United States is deeply concerned by China's recent 
pattern of aggressive actions, including along the Line of Actual 
Control with India, and by predatory trade, investment, and lending 
practices that are undermining the economies and sovereignty of other 
South Asian nations.
    We regularly engage with India at the highest levels regarding 
these concerns, including recently through Under Secretary for 
Political Affairs Hale's July 7 Foreign Office Consultations with 
Indian Foreign Secretary Shringla, through our Ambassador in New Delhi, 
who has met regularly with key Indian counterparts, and in our joint 
State-DoD 2+2 Ministerial Dialogues.
    We also work closely with our other partners in South Asia, 
maintaining strong lines of communication with government counterparts 
and underscoring U.S. support for the principles of sovereignty and 
territorial integrity.
                             belt and road
    Question. The Chinese Belt and Road Initiative has made inroads 
into Europe and has even signed an MOU with EU member Italy. I applaud 
the recent work done by the Development Finance Corporation and 
Ambassador Geoff Pyatt regarding the Elfasina Shipyard in Greece which 
I think shows how investment and diplomacy can be married to counter 
BRI. I don't however have a sense that there is an overall strategy to 
counter BRI in Europe, including working with Brussels and other key 
capitals across the continent. Do we have one? If so, what are its 
component parts?

    Answer. As part of the Department's strategy to counter the 
People's Republic of China's (PRC) malign influence, we have stepped up 
cooperation with our European Allies and partners and implemented a 
number of initiatives aimed at addressing the Belt and Road Initiative 
in Europe. Over the last 2 years, our diplomatic posts and interagency 
partners have greatly expanded outreach on risks to critical 
infrastructure and provided support to European countries in 
establishing or strengthening existing investment review mechanisms. We 
are working with our partners in the Western Balkans and Eurasia to 
ensure all potential projects are vetted to ensure commercial 
viability, transparency and fairness, and that national security 
concerns are taken into account.
    In February, Secretary Pompeo announced a commitment from DFC of up 
to $1 billion to the Three Seas Initiative (3SI) Fund in support of 
energy infrastructure projects, made possible in part by Congressional 
legislation adding flexibility to the DFC's mandate and allowing it to 
operate in high income countries in Europe within the energy sector. 
The Three Seas Initiative is a partnership of 12 democratic nations in 
Central and Eastern Europe intended to improve energy, 
telecommunications, and transportation infrastructure that bonds its 
members together and with the rest of Europe; the United States is a 
strong Three Seas supporter and partner, but not a member. The Three 
Seas Initiative is also designed to offer Western alternatives to 
infrastructure development that communist China might otherwise use to 
extend its malign influence via such projects.
    As needed, we are prepared to use foreign assistance funding from 
the Assistance to Europe, Eurasia, and Central Asia (AEECA) account as 
well as other accounts to assist our partners in resisting 
unsustainable investments and loans, disinformation, and other forms of 
malign Chinese activity. The Department is reviewing over 50 proposals 
to counter malign Chinese influence from U.S. Embassies for projects 
from the current Congressionally-mandated Countering Chinese Influence 
Fund (CCIF). Ongoing projects funded by AEECA are already beginning to 
address this issue in several arenas, including working with energy 
sector counterparts to provide technical assistance and facilitate 
access to finance for key interconnection projects; helping to promote 
cybersecurity capacity development as well as greater cyber critical 
infrastructure defenses; promoting alternatives to Chinese goods in 5G 
and other emerging technologies; and helping to strengthen cooperation 
on nuclear energy with several European allies, in the hopes of 
cementing commercial relations with U.S. or other western firms in lieu 
of significant reliance on Russian or emerging Chinese nuclear 
technology.

    Question. The Administration reportedly is considering barring 
Communist party members and their families from getting visas. That 
might mean about 200 million people, some with important power with 
whom we need to interact and some just ordinary citizens. What is the 
logic of such a move? What do you hope the effect will be?

    Answer. The Department refers questions about potential 
presidential actions to the White House.
                             trade policy:
    Question. As I mentioned in my opening statement, Ambassador 
Lighthizer commented the other day that he has no idea what the end 
game is on China with this Administration's trade policy: Do you? And 
if so, what is it?

    Answer. Under President Trump's leadership, the United States is 
confronting China's unfair and market-distorting trade policies and 
practices to achieve a fair and reciprocal trading relationship. Since 
negotiations with China began, the Administration has focused on 
concluding high-quality fully enforceable terms for trade between our 
countries. The Phase One Agreement concluded earlier this year is the 
first step in rebalancing our trade relationship. It incorporates 
meaningful, fully enforceable commitments to resolve structural issues, 
including those identified in the Section 301 investigation.
    Many, but not all, concerns regarding China's problematic trade 
policies and practices could be resolved with full implementation of 
the Phase One Agreement. We continue to have outstanding concerns, 
including in the areas of technology transfer, non-tariff measures, 
intellectual property rights, and services. We will continue to urge 
China to resolve these issues in future negotiations. As we work 
towards this outcome, the United States is maintaining 25 percent 
tariffs on approximately $250 billion of Chinese imports, along with 
7.5 percent tariffs on approximately $120 billion of Chinese imports.

    Question. Can I have your word that you will not use and that you 
will tell Secretary Pompeo and others that you do not think it 
appropriate to use racially stigmatizing language when discussing this 
pandemic in public or private?

    Answer. The United States condemns all forms of racial 
discrimination. State Department representatives speak out to condemn 
hate speech and to encourage other governments to do the same--while 
also promoting strong protections for freedom of expression. We 
continue working to counter racial discrimination, xenophobia, and 
other forms of intolerance.

    Question. What other tools does the Trump administration have to 
counterbalance China's growing influence around the world, including in 
contentious regions such as the South China Sea, Hong Kong, and Tibet?

    Answer. We have, and will continue to, increase pressure on the PRC 
government and take action to protect U.S. interests and values by 
imposing proportional costs when appropriate. In addition to publicly 
calling out malign PRC conduct, the United States has used visa 
restrictions under various authorities, financial sanctions, and policy 
announcements, among other tools, to address our concerns about 
Beijing's behavior. Additionally, the Department of State continuously 
engages with our partners and allies around the world to encourage them 
to take similar steps.

    Question. The Administration has repeatedly touted the success of 
its ``maximum pressure campaign'' as evidenced by Iran's economic 
decline. Do you see this economic devastation as making a partnership 
with China more appealing to Iranian leaders?

    Answer. For the Iranian regime, a closer partnership with China is 
a partnership born of desperation. Because the regime has been severely 
weakened, in part by U.S. sanctions but also through its own 
mismanagement and corruption, it is willing to negotiate a bad deal for 
the Iranian people as long as the regime gains access to much needed 
capital. The regime has been reluctant to publicly share details of the 
agreement for this very reason. The Iranian people know this, and they 
are rightly outraged by this hypocrisy.

    Question. What are your current bilateral and multilateral 
engagements with China regarding its potential investments and 
cooperation with Iran?

    Answer. We are closely monitoring reports of a draft 25-year 
agreement between China and Iran. The scale of the supposed Chinese 
investment in the deal deserves healthy skepticism. However, Chinese 
entities continue to provide financial support to the Iranian regime, 
including through the continued purchase of sanctioned Iranian 
petrochemicals and metals. We have made clear to the Chinese government 
that we will continue to vigorously enforce our sanctions regime with 
respect to Iran, including on Chinese individuals and entities that 
engage in sanctionable conduct. By allowing Chinese companies to 
conduct sanctionable activities with the Iranian regime, the PRC is 
undermining its own stated goal of promoting stability in the Middle 
East.

    Question. Does an increased security relationship between Iran and 
China help or hinder American interests in both the Middle East and 
Asia?

    Answer. In the near term, an increased security relationship 
between Iran and China would principally take the form of Chinese 
weapons sales to the Islamic Republic. As the number one state sponsor 
of terror and a key source of regional instability, no nation should be 
willing to provide Iran with even deadlier weapons until there is a 
fundamental change in the regime's behavior. Safeguarding regional 
security and the free flow of commerce is not only in the United States 
interest; it is a global responsibility.

    Question. What is the U.S. Government position on the right of 
Tibetan Buddhists in selecting a future Dalai Lama without the 
interference of any government, and what is the plan to push back 
against the planned interference of the Chinese government?

    Answer. The United States has made the promotion and protection of 
religious freedom a priority, especially in China, where people of all 
faiths face severe repression and discrimination. We remain concerned 
by the People's Republic of China's interference in the selection, 
education, and veneration of Tibetan Buddhist religious leaders. The 
U.S. government believes that Tibetan Buddhists, like members of all 
faith communities, must be able to select, educate, and venerate their 
religious leaders in accordance with their beliefs and without 
government interference. This human right to religious freedom dictates 
that the succession or identification of Tibetan Buddhist lamas, 
including His Holiness the Dalai Lama, should occur without any 
external interference, in a manner consistent with their beliefs.

    Question. Would you recommend and make sure that President Trump 
calls publicly on the Chinese President to address the legitimate 
grievances of the Tibetan people through dialogue with the Dalai Lama?

    Answer. The United States encourages the People's Republic of China 
(PRC) to enter into dialogue with the Dalai Lama or his 
representatives, without preconditions, leading to a negotiated 
agreement on Tibet. The Administration will continue to call on Beijing 
to ensure meaningful autonomy for Tibetans, improve respect for their 
human rights, including religious freedom, and preserve their unique 
religious, cultural, and linguistic identity.

    Question. At a time when the relationship is facing increasing 
friction and when the risk of conflict is rising, do we need such a 
process?

    Answer. The Administration sees no value in engaging with Beijing 
in high-level dialogues when the PRC offers no prospects for tangible 
results or constructive outcomes. We remain open to constructive, 
results-oriented engagement and cooperation with the PRC government 
where our interests align, even as we continue to compete vigorously 
when necessary.

    Question. Secretary Tillerson proposed a good framework at the 
beginning of the Administration, but obviously it has been abandoned. 
Why?

    Answer. We will continue to engage with PRC leaders in a respectful 
yet clear-eyed manner, challenging Beijing to uphold its commitments.

    Question. Given China and Russia's opposition to extending the U.N. 
arms embargo on Iran that it set to expire in a few short months, how 
do you see increased bilateral tension with China impacting its posture 
towards extending the arms embargo at the Security Council?

    Answer. The United States has called for an extension of the U.N. 
arms embargo on Iran due to the Islamic Republic's behavior. The 
Islamic Republic has done nothing to deserve the lifting of the embargo 
and continues to send weapons to armed militias and proxies all across 
the region in Lebanon, Syria, Iraq, and Yemen. Combating Iranian malign 
influence in order to foster regional stability and safeguard the free 
flow of commerce is a global responsibility. Irrespective of 
differences that may exist between members of the Security Council, 
allowing Iran to purchase and proliferate weapons would be an 
abdication of the U.N. Security Council's mandate to maintain 
international peace and security.

    Question. What are you doing to combat Chinese and Russian 
influence at the U.N. Security Council regarding Syria?

    Answer. This year marks the 10th consecutive year of a conflict 
that has caused massive suffering for the Syrian people. Working with 
our partners and the United Nations (U.N.) in support of the Syrian 
people, the United States is combatting People's Republic of China 
(PRC) and Russian malign influence on three different fronts: 
political, humanitarian, and chemical weapons. Over eleven million 
people currently remain in need of humanitarian assistance in Syria, 
including 6.6 million Internally Displaced People (IDPs). However, 
Russia has used its Security Council veto to support the Assad regime 
no less than 16 times, including 10 occasions on which it voted jointly 
with the People's Republic of China. The Assad regime continues to 
commit mass atrocities, some of which rise to the level of war crimes 
and crimes against humanity. Recent efforts have demonstrated that the 
Security Council is increasingly united in its support for the Syrian 
people, and in the process the United States and its allies are 
isolating both Russia and the PRC in their continued support of the 
Assad regime.
    The United States continues to support the efforts of U.N. Special 
Envoy for Syria Geir Pedersen in implementing a credible political 
process to achieve a lasting solution to the conflict in Syria as 
outlined in Security Council resolution 2254 (2015), and we welcome his 
plan to convene the third meeting of the Constitutional Committee in 
August. U.N. reporting continues to contradict the lies and propaganda 
of the Assad regime. The July 7 Commission of Inquiry notes the 
devastating impacts of assaults on Syrian civilians in Idlib Province 
by the regime and Russia, concluding that the attacks are responsible 
for 534 of the 582 confirmed civilian casualties and also finding 
numerous instances where attacks led to mass displacement. Working with 
interagency partners, the Department is aggressively implementing 
Caesar sanctions aimed at deterring malign actors who continue to aid 
and finance the Assad regime's atrocities against the Syrian people 
while enriching themselves and their families. The Department also 
continues to combat the PRC's attempts to insert its ideology and 
references to the Belt and Road Initiative into U.N. Security Council 
resolutions.
    With the recent adoption of Security Council resolution 2533 
(2020), essential food, shelter, and medicine and supplies to prevent 
the spread of COVID-19 continue to flow to Syrians in need in the 
northwest. Resolution 2533 allows U.N. access to Bab al-Hawa for 12 
months, a significant improvement to the Russian proposal of only 6 
months. An overwhelming majority of the Security Council worked in good 
faith with Belgian and German drafters to overcome Russian and Chinese 
intransigence to adopt a resolution that would enable life-saving 
humanitarian assistance to reach those in need in Syria. Having 
provided more than $11.3 billion in humanitarian assistance since the 
beginning of the crisis, the United States remains the world-leader in 
ensuring that life-saving assistance reaches all Syrians in need.
    The 2017 attacks in Ltaminah make clear that the Assad regime will 
stop at nothing to pursue a military victory. As the Assad regime 
remains in non-compliance with its obligations under the Chemical 
Weapons Convention (CWC) and Security Council resolution 2118, the 
United States continues to lead efforts making it clear that the use of 
chemical weapons will not be tolerated and those who use chemical 
weapons will be held to account. To that end, the United States, along 
with its allies and partners, recently took strong action to address 
the Organization for the Prohibition of Chemical Weapons (OPCW) 
Investigation and Identification Team's findings. On July 9, the OPCW 
Executive Council adopted a decision demanding that Syria immediately 
cease its use of chemical weapons and requesting that Syria declare, 
among other things, the facilities where the chemical weapons used in 
the March 2017 attacks in Ltaminah were produced, stored, and deployed 
for delivery. Only Russia, the PRC and Iran voted against these 
findings, as all 29 other members voted in favor.
                           china and the gulf
    China has made significant investments into Arab Gulf countries 
with whom the United States has significant security relationships. 
Last month, CENTCOM Commander General McKenzie stated: ``We see China 
moving in, principally economically--but not completely--to establish a 
beachhead.''

    Question. What are the implications of increased Chinese investment 
in critical infrastructure projects in the Arab Gulf States?

    Answer. Over the last 2 years, one-fifth of global Chinese overseas 
construction projects took place in Arab Gulf countries as the 
countries looked to expand their critical infrastructure and diversify 
away from heavy reliance on hydrocarbons in their economies. Currently, 
roughly half of China's oil imports come from the Middle East and North 
Africa, and prior to the COVID-19 pandemic, the International Energy 
Agency had predicted that imports from the region would double by 2035. 
The expansion of economic ties and People's Republic of China (PRC) 
state-owned-enterprise involvement in large-scale, complicated 
infrastructure projects has allowed U.S.-sanctioned technology firms 
such as Huawei, Hikvision, Hytera, and others to gain footholds 
supporting these major investments.
    Given Beijing's increasing use of economic leverage to extract 
political concessions from--or exact retribution against--other 
countries, the PRC may attempt to convert its deep investments in 
critical infrastructure into undue political influence and military 
access, while the energy exporters who rely on sales to China will be 
at heightened risk of malign influence. As countries attempt to shore 
up their balance sheets in the aftermath of COVID-19, they may become 
more receptive to an expanded Chinese footprint within their borders. 
Ultimately, the resulting deeper economic ties will create future 
opportunities for PRC firms to gain influence. In response, the 
Department of State is engaging regularly with leaders in the Middle 
East on a variety of critical issues, including problematic Chinese 
investments.
                           china and the gulf
    China has made significant investments into Arab Gulf countries 
with whom the United States has significant security relationships. 
Last month, CENTCOM Commander General McKenzie stated: We see China 
moving in, principally economically--but not completely--to establish a 
beachhead.''
    Question. Please describe your engagement with relevant leaders in 
these countries regarding Chinese investment.

    Answer. The Department of State engages regularly with leaders in 
the Middle East on a variety of critical issues including problematic 
Chinese investments. Top Department leadership has traveled to the 
region in the last year to raise concerns about Huawei, high-tech 
acquisitions, and inroads in strategic infrastructure. Recently we have 
also increased our engagement with the Arab League and Organization of 
Islamic Cooperation (OIC), including the redesignation of our Consulate 
General in Jeddah as our official representative to the OIC. We have 
also urged countries to protect their own sovereignty and security by 
enacting CFIUS-type measures to restrict foreign investments in local 
companies that might pose national security risks.

    Question. In what areas do you see Chinese investment as presenting 
direct threats to U.S. interests or equities?

    Answer. While many Chinese investments present risks to the host 
nation, not all Chinese investments directly threaten U.S. interests. 
Chinese investment that undermines a level playing field for U.S. 
companies or undermines the rules-based international order is of 
concern. Chinese investments in the Middle East that potentially 
threaten U.S. interests and equities include those that threaten the 
security of telecom networks by companies like Huawei, as well as 
investments into strategic industries such as energy, logistics, and 
defense. In response, we are leading efforts with our partners in the 
region to counter malign Chinese investments and to promote American or 
partner alternatives whenever possible.

    Question. Have any Chinese-origin weapons systems, including armed 
or unarmed drones, been used by Saudi Arabia, the UAE, Egypt, Qatar or 
Turkey in the conflicts in Yemen or Libya? If so, have any of those 
uses resulted in civilian casualties?

    Answer. China has sold multiple weapons systems to Saudi Arabia, 
the UAE, Egypt, Qatar, and Turkey, including armed drones to Saudi 
Arabia, the UAE, and Egypt. Available reporting suggests that Saudi 
Arabia employed its China-origin drones in Yemen, and the UAE used them 
in Yemen and Libya. Saudi Arabia has also reportedly employed Chinese 
artillery pieces in Yemen. We cannot establish if any of these reported 
drone or artillery strikes resulted in civilian casualties.

    Question. Have any Chinese-origin weapons systems, including armed 
drones, been provided to non-state actors by Saudi Arabia, the UAE, 
Egypt, Qatar or Turkey in the conflicts in Yemen or Libya? If so, have 
any of those uses resulted in civilian casualties?

    Answer. No reports indicate that any Chinese-origin weapons have 
been provided to non-state actors by Saudi Arabia, the UAE, Egypt, 
Qatar or Turkey in the conflicts in Yemen or Libya.

    Question. What steps has the U.S. taken to prevent the purchase of 
Chinese-origin weapons systems, including armed drones by countries 
included in the NEA bureau?

    Answer. The United States has urged countries to beware of 
unscrupulous actors like China offering deceptively cut-price defense 
systems and equipment. Such acquisitions are no bargain, and are often 
accompanied by the loss of sovereignty, resource extraction or debt-
trap diplomacy, the signing away of rights to critical physical or IT 
infrastructure, or the exploitation of intellectual property due to 
espionage or outright theft. We have emphasized to our partners 
globally that acquiring these systems does not strengthen their 
security, but rather undermines their interoperability with U.S. 
forces, and should rightly be avoided. The United States will continue 
to offer assistance to allies and partners in need, and we will do so 
without those harmful strings attached.

    Question. What steps did the U.S. take to try to prevent these and 
other countries from signing such a letter whitewashing China's crimes 
against its own Uighur population? What steps will the U.S. take to 
push these countries to recant their signatures and prevent future 
letters from being signed?

    Answer. The United States consistently urges third countries to 
condemn the PRC's human rights abuses in Xinjiang. We will continue to 
publicly and privately call on the PRC to immediately end its horrific 
practices in Xinjiang and ask all nations, including Muslim-majority 
ones, to join the United States in demanding an end to these 
dehumanizing abuses. In September 2019, on the margins of the 74th 
General Debate of the U.N. General Assembly, the United States co-
hosted a high-level event on the human rights crisis in Xinjiang with 
four allies, which was widely attended by member states from all 
regions of the world . In October 2019, we were proud to join a cross-
regional group of 23 countries in signing a joint statement on Xinjiang 
in the U.N. General Assembly, which drew on the concluding observations 
of the Committee on the Elimination of Racial Discrimination to urge 
the PRC to reverse course in Xinjiang. The United States has been 
disappointed to see Muslim countries not respond when there are 
significant Muslim populations being impacted in western China, and we 
continue to urge them to take this on in a serious way.
                   social media account working group
    Last year, in February 2019, the State Department Inspector General 
revealed that more than 20 ambassadors were likely in violation of the 
State Department's social media policies. In addressing the Inspector 
General's recommendations from the report, the Department indicated it 
recently established a Social Media Account Working Group to reexamine 
the Department's policies, which I understand you lead. During your 
confirmation process last November, you made a commitment to review all 
allegations of potential violations of the Department's social media 
policies. You also indicated that the Department was in the midst of 
finalizing a standard operating procedure and a set of recommendations 
to assess and address potential violations. I understand that these 
recommendations are still currently awaiting your review, even as 
Ambassadors continue to post controversial and insensitive posts on 
both personal and official social media accounts. As such, please 
answer the following:

    Question. Why has it taken the Department more than a year and a 
half to fully address the still outstanding Inspector General's 
recommendations from the February 2019 social media report?

    Answer. The Department has implemented two of the three 
recommendations from the Inspector General's February 2019 report. We 
have clarified the social media use policy with specific examples and 
have sent reminders to all employees on the social media use policy on 
a regular basis. The outstanding recommendation asked the Department to 
develop and implement a review process for compliance with the social 
media use policy. The Department is working toward addressing this 
recommendation.

    Question. When did the Social Media Account Working Group provide 
you with its recommendations on the Department's social media policies?

    Answer. In July 2019, the Social Media Accounts Working Group 
provided Deputy Secretary Sullivan with an update on the progress for 
implementing the OIG recommendations. Following my confirmation as 
Deputy Secretary, in February of this year I was briefed on the work of 
the Social Media Accounts Working Group.

    Question. Please provide an explanation as to why the Social Media 
Account Working Group's recommendations are still currently under your 
review, 7 months after your confirmation, and when the Department will 
implement changes to its policies.

    Answer. The Department has already implemented two recommendations 
from the Inspector General's February 2019 report. The third 
recommendation is being addressed with the development and 
implementation of a standard operating procedure for reviewing accounts 
for compliance with the social media use policy (10 FAM 180). The 
development of the standard operating procedures required broad 
coordination and collaboration across the Department to include records 
management, legal, human resources, and other subject matter experts.

    Question. How has the Department's enforcement of social media 
policies improved since February 2019?

    Answer. Based on the OIG recommendations, the Department published 
the Personal and Official Use Social Media Handbook in August 2019. The 
handbook includes detailed information that is intended to assist 
employees in separating official and personal capacity communications 
on social media accounts. The handbook is routinely distributed to and 
discussed with participants in the Foreign Service Institute's 
Ambassadorial Seminar and in public diplomacy social media classes. The 
annual, and additionally as needed, publication of reminders on social 
media policies has been formalized and is managed by the Under 
Secretary for Public Diplomacy and Public Affairs' Office of Policy, 
Planning and Resources.
    [The information referred to above can be found at the end of this 
section.]

    Question. What steps are you taking to hold all Department 
employees who run afoul of the Department's social media policies 
accountable?

    Answer. The Department takes seriously any reports that Department 
officials may be in violation of social media policies. In cases in 
which the Department discovers a violation of any agency policy, 
including the social media policy, the Department may consider a broad 
range of disciplinary or other administrative actions. For reference, 
the Department's discipline policies for employees are described in 3 
FAM 4100, 4300 and 4500, among others, and apply to violations of 
statutes, regulations, or Department policy, as stated in the FAM, 
Foreign Affairs Handbooks, Department notices or ALDACs, or bureau or 
post policy documents. The Department does not discuss individual 
personnel actions.

    Personal and Official Use Social Media Handbook--August 13, 2019
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 ______
                                 

 Responses of Deputy Secretary of State Stephen E. Biegun to Questions 
                    Submitted by Senator Ben Cardin

    Question. What is the U.S. Government position regarding the right 
of Tibetan Buddhists to select a future Dalai Lama without the 
interference of any government?

    Answer. The United States has made the promotion and protection of 
religious freedom a priority, especially in China, where people of all 
faiths face severe repression and discrimination. We remain concerned 
by the People's Republic of China's interference in the selection, 
education, and veneration of Tibetan Buddhist religious leaders. The 
U.S. government believes that Tibetan Buddhists, like members of all 
faith communities, must be able to select, educate, and venerate their 
religious leaders in accordance with their beliefs and without 
government interference. This human right to religious freedom dictates 
that the succession or identification of Tibetan Buddhist lamas, 
including His Holiness the Dalai Lama, should occur without any 
external interference, in a manner consistent with their beliefs.

    Question. The Tibetan Policy Act of 2002 established the position 
of Special Coordinator for Tibetan Issues within the State Department. 
It has remained unfilled throughout the Trump administration. What 
signal, if any, is the Administration sending by keeping this position 
vacant?

    Answer. U.S. government policy on Tibet has not changed. Our 
longstanding concerns over Tibet have been shared by multiple 
administrations and are codified by law within the Tibetan Policy Act. 
We remain committed to supporting meaningful autonomy for Tibetans, 
improving respect for their human rights, including religious freedom, 
and preserving their unique religious, cultural, and linguistic 
identity. We are carefully considering candidates to fill the role of 
Special Coordinator for Tibetan Issues at the Department of State.

    Question. What is the plan to push back against the interference of 
the Chinese government in Tibet?

    Answer. We remain committed to supporting meaningful autonomy for 
Tibetans, improving respect for their human rights, including religious 
freedom, and preserving their unique religious, cultural, and 
linguistic identity. The United States remains concerned that People's 
Republic of China (PRC) authorities continue to take steps to eliminate 
this unique identity. We will continue to press the People's Republic 
of China to respect meaningful autonomy for Tibetans and to halt 
actions that threaten Tibetan culture and religious traditions. We also 
remain committed to enhancing the sustainable economic development, 
environmental conservation, and humanitarian conditions of Tibetan 
communities.

    Question. Would you recommend and ensure that President Trump calls 
publicly on the Chinese President to address the grievances of the 
Tibetan people through dialogue with the Dalai Lama?

    Answer. The United States encourages the People's Republic of China 
(PRC) to enter into dialogue with the Dalai Lama or his 
representatives, without preconditions, leading to a negotiated 
agreement on Tibet. The Administration will continue to call on Beijing 
to ensure meaningful autonomy for Tibetans, improve respect for their 
human rights, including religious freedom, and preserve their unique 
religious, cultural, and linguistic identity.

    Question. What efforts or reforms is the State Department making to 
protect other participants in IVLP and other State Department exchange 
programs in authoritarian states?

    Answer. Department of State is committed to the safety and security 
of more than 300,000 U.S. and foreign citizens who participate in 
exchange programs abroad and here in the United States each year.
    Safety and security considerations are incorporated into every 
aspect of the development and implementation of our exchange programs. 
This includes the careful selection and screening of participants, 
program partners, host families, universities and schools, fellowship 
sites, and other stakeholders.
    Furthermore, programs utilize pre-departure and arrival briefings, 
monitoring and oversight, health benefits programs, 24/7 assistance 
hotlines, and other tools to provide active and compassionate responses 
when emergencies arise.
    Ensuring the safety and security of all exchange program 
participants--regardless of where the programs take place--is a weighty 
responsibility the Department takes very seriously. We understand it 
requires a collective and sustained focus as well as cooperation with 
others across the interagency. By working together, we will keep safety 
and security among our highest priorities and ensure the best 
experience for all exchange participants.

    Question. What is your department's plan to effectively counter 
China's culture of high-tech authoritarianism that has been brought to 
bear in Xinjiang?

    Answer. The State Department has taken concrete action and remains 
committed to combating the PRC's campaign of repression in Xinjiang. 
The Department imposed visa restrictions on three senior CCP officials 
under Section 7031(c) of the FY 2020 Department of State, Foreign 
Operations, and Related Programs Appropriations Act, for their 
involvement in gross violations of human rights and supported the 
Treasury Department's imposition of economic sanctions on the same; 
announced visa restrictions on PRC government and Chinese Communist 
Party officials who are believed to be responsible for, or complicit 
in, the unjust detention or abuse of members of Muslim minority groups 
in Xinjiang and on corporate officials in Chinese companies responsible 
for contributing to human rights abuses globally, including in 
Xinjiang; and issued a business advisory to caution businesses about 
the risks of supply chain links to human rights abuses, including 
forced labor, in and connected to Xinjiang. We have also joined with 
like-minded partners in publicly condemning these human rights abuses.
    The State Department has also paid particular attention to the 
PRC's use of digital technologies to support repressive rule--
particularly in Xinjiang. Many Department initiatives aim to address 
the increasing trend of authoritarian governments using new technology 
applications to violate or abuse human rights by imposing costs on 
repressive governments and promoting the development and adoption of 
norms in technology applications.
                                 ______
                                 

 Responses of Deputy Secretary of State Stephen E. Biegun to Questions 
                   Submitted by Senator Edward Markey

    Question. Have you been briefed on any transcript, diplomatic 
cable, or any other form of communication that supports media reports 
that President Trump gave approval, tacit or otherwise, to President Xi 
Jinping of the People's Republic of China (PRC) to construct mass 
internment camps to imprison Uyghur and other minorities in Xinjiang 
Province?

    Answer. The Administration's actions to stop human rights abuses in 
Xinjiang speak volumes, and the President himself has personally heard 
from those affected, including Jewher Ilham, who is the daughter of 
prominent Uighur scholar Ilham Tohti, who was given a life sentence in 
2014. More than any other government, the United States has taken 
concrete action to combat the PRC's campaign of repression in Xinjiang, 
to include visa restrictions, financial sanctions, export restrictions, 
import restrictions, and the release of a business advisory. We have 
also joined with like-minded partners in publicly condemning these 
human rights abuses.

    Question. Do you have knowledge of any similar communications 
described in the previous question between U.S. Government officials 
other than the President and Chinese government officials?

    Answer. More than any other government, the United States has taken 
concrete action to combat the PRC's campaign of repression in Xinjiang, 
to include visa restrictions, financial sanctions, export restrictions, 
import restrictions, and the release of a business advisory. We have 
also joined with like-minded partners in publicly condemning these 
human rights abuses. We will continue to call on the Chinese Communist 
Party to immediately end its horrific practices in Xinjiang and ask all 
nations to join the United States in demanding an end to these 
dehumanizing abuses.

    Question. Has President Trump indicated to the Chinese government a 
willingness to refrain from commenting on or acting against human 
rights violations, including on a June 2019 call during which he 
reportedly promised President Xi that he would not speak out on China's 
response to pro-democracy protests in Hong Kong while trade talks 
continued?

    Answer. More than any other government, the United States has taken 
concrete action to combat the PRC's campaign of repression in Xinjiang, 
to include visa restrictions, financial sanctions, export restrictions, 
import restrictions, and the release of a business advisory. We have 
also joined with like-minded partners in publicly condemning these 
human rights abuses. We will continue to call on the Chinese Communist 
Party to immediately end their horrific practices in Xinjiang and ask 
all nations to join the United States in demanding an end to these 
dehumanizing abuses.

    Question. August 25, 2020 marks the third-year anniversary of the 
start of a systematic campaign by Burma's security forces that the 
State Department has referred to as the ``ethnic cleansing'' of the 
Rohingya Muslim minority. What additional documentation would be 
required for the State Department to reach the same genocide 
determination that the United Nations Fact Finding Mission (FFM), 
Fortify Rights, and the United States Holocaust Museum all separately 
reached in 2018?

    Answer. The United States has repeatedly expressed its deep concern 
about the horrific violence against members of the Rohingya community 
in 2017 and the ongoing humanitarian crisis in Rakhine State. Then-
Secretary Tillerson determined in November 2017 that the atrocities 
against Rohingya constituted ethnic cleansing. We have taken strong 
actions to promote accountability for those involved in abuses against 
Rohingya during the ethnic cleansing, designating top military leaders 
for their roles in serious human rights abuses under the Global 
Magnitsky Act and imposing visa restrictions for their involvement in 
gross violations of human rights under Section 7031(c) of the 
Department of State, Foreign Operations, and Related Programs 
Appropriations Act. We also continue to support relevant multilateral 
investigative and justice processes.
    Our top priorities on this issue are changing behavior and 
preventing additional atrocities. The Secretary has said that our 
actions will continue to be reviewed with these goals in mind.
                                 ______
                                 

 Responses of Deputy Secretary of State Stephen E. Biegun to Questions 
                     Submitted by Senator Ted Cruz

    Question. In 2015, the Obama administration responded to a request 
from China and banned Taiwanese officials and military members from 
displaying their flags and insignia on government property and bases. 
This policy is described in the periodic memorandum entitled 
``Guidelines on Relations with Taiwan.'' I have introduced legislation 
mandating the reversal of those guidelines, the Taiwan Symbols of 
Sovereignty (SOS) Act, S. 3310. Nevertheless the guidelines can be 
changed unilaterally by the Administration in the absence of a 
Congressional mandate. I would like a commitment from the 
Administration to change those guidelines so as to allow members of the 
armed forces and government representatives from the Republic of China 
(Taiwan) or the Taipei Economic and Cultural Representative Office 
(TECRO) to display the flag of the Republic of China (Taiwan) and the 
corresponding emblems or insignia of military units for official 
purposes: Can you commit to securing such changes?

    Answer. As I said during the hearing, I am happy to review this 
policy in more detail. The key issue relates to the nature of the 
relationship between the United States and Taiwan, as defined by the 
Taiwan Relations Act. Within these guidelines, the Administration 
continues to take steps to deepen our relationship and broaden our 
support for Taiwan to reflect the deepening ties of friendship, trade, 
and productivity between the United States and Taiwan. However, 
inviting use of symbols of sovereignty, such as the display of the 
flags of the Republic of China (China) would not be consistent with the 
TRA. The Guidelines on Relations with Taiwan allow the Executive Branch 
to maintain a strong relationship with the Taiwan authorities 
consistent with that policy while avoiding activities that are 
inconsistent with the nature of this unofficial relationship.

    Question. We have seen China systematically work its way through 
international organizations, in different ways. Sometimes they outright 
seize control of those organizations and subvert them. Other times they 
take a different route, pushing organizations to adopt technology from 
Chinese companies answerable to the Chinese Communist Party (CCP). 
Earlier this year, the U.N. was planning to sign a contract with 
Tencent, a company that State Department officials have told Congress 
cannot say ``no'' when CCP officials come knocking. State Department 
officials have also named Huawei, ZTE, Alibaba, and Baidu as other 
companies that are vulnerable to coercion by the CCP and constitute 
espionage risks: What is the State Department's policy regarding 
international organizations that use such technology? How can the State 
Department use the voice, vote, and influence of the United States to 
prevent such technology from being used by international organizations?

    Answer. The State Department opposes international organizations 
using technologies that put users at risk from nefarious activities or 
could enable abuses or violations of their human rights. The U.N. 
Secretary-General recently announced that the U.N. would develop 
``system-wide guidance on human rights due diligence and impact 
assessments in the use of new technologies.''
    The State Department was dismayed by the U.N.'s announcement of a 
partnership with Chinese media conglomerate Tencent to host global 
conversations related to the U.N.'s 75th anniversary on its web 
platforms. The United States communicated its concerns about this 
partnership and the manner in which it was formed directly to U.N. 
leadership.

    Question. The U.S. has spent billions of dollars investing in 
research battling infectious diseases in Africa. Last year it was 
announced that China is funding and building the new African Center for 
Disease Control in Ethiopia. That Center will be the site where U.S. 
research from across the continent will be consolidated, ceding 
billions of dollars and many years of U.S. research and funding to the 
Chinese: What is the State Department doing to stop China from building 
this new CDC? Do those activities include direct engagement with the 
Ethiopians on this topic?

    Answer. We are deeply concerned about China's plans to build a new 
headquarters for the Africa Centers for Disease Control and Prevention. 
The United States has supported the Africa CDC since it was established 
in 2017. We are directly engaging the African Union Commission, African 
Union member states, and non-African allies and partners on this matter 
in a robust diplomatic campaign to make our concerns clear and 
underscore that African Union member states should make important 
decisions about where institutions are based, through an open and 
transparent process. As I mentioned in my testimony, we will continue 
to highlight the pitfalls of Chinese funding in our diplomatic 
engagement with African countries. It is in the interest of the United 
States to strongly support a robust Africa CDC, free of malign 
influence, that can help prevent, detect, and respond to infectious 
disease threats on the continent.

                                  <all>
</pre></body></html>
